1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
________________________
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
No. 18-5578
v.
WILLIAM J. MILLER,
Defendant-Appellant.
Appeal from the United States District Court
for the Eastern District of Kentucky at Covington.
No. 2:16-cv-00047-1—David L. Bunning,
District Judge.
Argued: December 11, 2018
Decided and Filed: December 3, 2020
Before: McKEAGUE, KETHLEDGE, and MURPHY,
Circuit Judges.
________________________
COUNSEL
ARGUED: Eric G. Eckes, PINALES, STACHLER,
YOUNG, BURRELL & CROUSE CO., L.P.A., Cincinnati, Ohio, for Appellant. Elaine K. Leonhard,
UNITED STATES ATTORNEY’S OFFICE, Ft. Mitchell, Kentucky, for Appellee. ON BRIEF: Eric G.
Eckes, PINALES, STACHLER, YOUNG, BURRELL

2a
& CROUSE CO., L.P.A., Cincinnati, Ohio, for Appellant. Elaine K. Leonhard, UNITED STATES ATTORNEY’S OFFICE, Ft. Mitchell, Kentucky, Charles P.
Wisdom, Jr., UNITED STATES ATTORNEY’S OFFICE, Lexington, Kentucky, for Appellee. Alan Butler, ELECTRONIC PRIVACY INFORMATION CENTER, Washington, D.C., Ryan T. Mrazik, PERKINS
COIE LLP, Seattle, Washington, for Amici Curiae.
________________________
OPINION
________________________
MURPHY, Circuit Judge. Courts often must apply
the legal rules arising from fixed constitutional rights
to new technologies in an evolving world. The First
Amendment’s rules for speech apply to debate on the
internet. Packingham v. North Carolina, 137 S. Ct.
1730, 1735–36 (2017). The Second Amendment’s rules
for firearms apply to weapons that did not exist “at
the time of the founding.” District of Columbia v. Heller, 554 U.S. 570, 582 (2008). The Supreme Court has
made the same point for the rights at issue in this
criminal case: The Fourth Amendment right against
“unreasonable searches” and the Sixth Amendment
right to confront “witnesses.” See Kyllo v. United
States, 533 U.S. 27, 34–36 (2001); Melendez-Diaz v.
Massachusetts, 557 U.S. 305, 315–17 (2009). We must
consider how the established rules for these traditional rights should apply to a novel method for combatting child pornography: hash-value matching.
A hash value has been described as “a sort of digital fingerprint.” United States v. Ackerman, 831 F.3d
1292, 1294 (10th Cir. 2016). When a Google employee
views a digital file and confirms that it is child pornography, Google assigns the file a hash value. It then

3a
scans Gmail for files with the same value. A “match”
signals that a scanned file is a copy of the illegal file.
Here, using this technology, Google learned that a
Gmail account had uploaded two files with hash values matching child pornography. Google sent a report
with the files and the IP address that uploaded them
to the National Center for Missing and Exploited Children (NCMEC). NCMEC’s systems traced the IP address to Kentucky, and a detective with a local police
department connected William Miller to the Gmail account. Miller raises various constitutional challenges
to his resulting child-pornography convictions.
He starts with the Fourth Amendment, arguing
that Google conducted an “unreasonable search” by
scanning his Gmail files for hash-value matches. But
the Fourth Amendment restricts government, not private, action. And while Google’s hash-value matching
may be new, private searches are not. A private party
who searches a physical space and hands over paper
files to the government has not violated the Fourth
Amendment. Burdeau v. McDowell, 256 U.S. 465, 475
(1921). That rule covers Google’s scan of virtual spaces
and disclosure of digital files.
Miller next argues that the police detective conducted an “unreasonable search” when he later
opened and viewed the files sent by Google. This claim
implicates another settled rule: Under the privatesearch doctrine, the government does not conduct a
Fourth Amendment search when there is a “virtual
certainty” that its search will disclose nothing more
than what a private party’s earlier search has revealed. United States v. Jacobsen, 466 U.S. 109, 119
(1984). So we must ask whether the detective’s manual search would disclose anything more than what
Google’s hash-value search showed. Critically, Miller

4a
does not dispute the district court’s finding about a
hash-value match’s near-perfect accuracy: It created a
“virtual certainty” that the files in the Gmail account
were the known child-pornography files that a Google
employee had viewed. Given this (unchallenged) reliability, Jacobsen’s required level of certainty is met.
Miller thus asks us to depart from Jacobsen’s idiosyncratic definition of a Fourth Amendment “search,”
noting that the Supreme Court recently clarified that
such a “search” also occurs when the government trespasses onto property to obtain information. United
States v. Jones, 565 U.S. 400, 404–08 (2012). At the
least, Miller says, the detective’s opening of the files
qualifies as a search in this “trespass-to-chattels”
sense. He raises a legitimate (if debatable) point. The
Supreme Court has long required the government to
obtain a warrant to open sealed letters, the equivalent
of modern emails. Ex parte Jackson, 96 U.S. 727, 732–
33 (1877). Yet, well before Jacobsen, the Court also allowed the government to rely on letters illegally taken
and opened by private parties. Burdeau, 256 U.S. at
474–75. And Google arguably “opened” the files and
committed the “trespass” here. In the end, though, we
need not resolve this debate. We find ourselves bound
by Jacobsen no matter how this emerging line of authority would resolve things.
Miller lastly argues that the admission of
NCMEC’s report at trial violated his Sixth Amendment right to confront “witnesses.” This right’s basic
rule (that a defendant must have the opportunity to
cross-examine those who make testimonial statements) certainly applies to new types of witnesses,
such as forensic analysts. Melendez-Diaz, 557 U.S. at
313–21. But the rule’s reach is nevertheless limited to
statements by “witnesses”—that is, people. And

5a
NCMEC’s automated systems, not a person, entered
the specific information into the report that Miller
challenges. The rules of evidence, not the Sixth
Amendment, govern the admissibility of this computer-generated information.
For these reasons and those that follow, we affirm
Miller’s convictions.
I
A
Many companies rely on hash-value matching to
remove child pornography from their email, file-sharing, and similar internet services. Amicus Br. of Discord et al., at 4–5. “A hash value is a number that is
often represented as a sequence of characters and is
produced by an algorithm based upon the digital contents of a drive, medium, or file.” 2017 Advisory Committee Note to Fed. R. Evid. 902(14). As a government
witness explained, hash values can be created using
common algorithms like SHA or MD5. Johnson Tr.,
R.106, PageID#1290. “You basically point this algorithm toward a file, and you get back this alphanumeric string, and that’s a series of characters that are
a fingerprint; the VIN number or the DNA, if you will,
of that file.” Id. Some algorithms assign a character to
every pixel in an image, such that the hash value will
change if a single pixel changes. Id., PageID#1291.
Other programs, like Microsoft’s PhotoDNA, return
the same value even if a file changes slightly. Id. After
companies assign a “hash value” to a known image of
child pornography, they can scan their services for
files with the same value. When they get a “match,”
they know that the scanned file is a duplicate of the
child-pornography image without opening and viewing the file. Amicus Br. of Discord et al., at 4–5.

6a
Apart from commonly used hash algorithms, companies create their own unique programs. “[S]ince
2008,” for example, “Google has been using its own
proprietary hashing technology to tag confirmed child
sexual abuse images.” McGoff Decl., R.33-1,
PageID#161. When a Google employee finds a childpornography image on its services, Google gives this
image a “hash” and adds it to its “repository of hashes
of apparent child pornography as defined in 18 U.S.C.
§ 2256.” Id. Google might also discover child pornography from a customer’s complaint, but “[n]o hash is
added to [its] repository without the corresponding
image first having been visually confirmed by a
Google employee to be apparent child pornography.”
Id.
Google’s terms of service inform its customers that
they may not use services like Gmail in violation of
the law. Id. The terms indicate: “We may review content to determine whether it is illegal or violates our
policies, and we may remove or refuse to display content that we reasonably believe violates our policies or
the law. But that does not necessarily mean that we
review content, so please don’t assume that we do.”
Terms, R.33-1, PageID#164.
Consistent with these terms, Google’s “product
abuse detection system” scans some files that customers upload looking for hash-value matches with the
files in its child-pornography repository. McGoff Decl.,
R.33-1, PageID#161–62. When this system detects a
match, Google does one of two things. Id. An employee
might view the file to confirm that it is child pornography. Id., PageID#162. Or Google might just send an
automated report with the file to the National Center
for Missing and Exploited Children (NCMEC). Id.
NCMEC, a nonprofit entity, “was created to help find

7a
missing children, reduce child sexual exploitation,
and prevent child victimization.” Shehan Decl., R.336, PageID#193.
Companies like Google have business reasons to
make these efforts to remove child pornography from
their systems. As a Google representative noted, “[i]f
our product is associated with being a haven for abusive content and conduct, users will stop using our services.” McGoff Decl., R.33-1, PageID#161. Yet once
“electronic communication services providers” become
aware of child pornography on their services, federal
law requires them to report it to NCMEC. 18 U.S.C.
§§ 2258A(a), 2258E(6). NCMEC operates a “CyberTipline” that allows companies to securely disclose child
pornography. Shehan Decl., R.33-6, PageID#194–95.
Companies use a standardized “CyberTipline Report” to send images to NCMEC. A company will complete the report’s “Section A” by identifying, among
other things, the date that the company discovered
the file and the IP address that uploaded it. Rep.,
R.33-2, PageID#169–71. After a company sends this
information, NCMEC’s systems run a search for the
location of the IP address and input the results into
“Section B” of the report. Id., PageID#172. An analyst
next might manually search public information to
identify a suspect (for example, an analyst might look
for information associated with the email address that
sent the file). Id., PageID#174–76. This analyst might
also look at the image, depending on such factors as
whether the inspection could identify the culprit.
Shehan Decl., R.33-6, PageID#195. The analyst adds
the search results to “Section C” of the report. Rep.,
R.33-2, PageID#174–77. NCMEC sends the completed
report to the law-enforcement agency in the area of
the IP address. Shehan Decl., R.33-6, PageID#196.

8a
B
This case concerns Gmail. On July 9, 2015, the
email address “miller694u@gmail.com” attached two
files to an email that had hash values matching images in Google’s child-pornography repository. Rep.,
R.33-2, PageID#170–71. One file was named “young tight
fuck.jpg”;
the
other
was
named
“!!!!!!Mom&son7.jpg.” Id., PageID#170. Google deactivated the account. The next day, it sent NCMEC an
automated CyberTipline Report. Id., PageID#169. No
Google employee viewed the files. The report classified the images as “A1” under an industry-wide classification scheme, which meant that they were of prepubescent minors engaged in sex acts. Id.,
PageID#170–72. Google listed two IP addresses associated with the Gmail account. From the first IP address, someone had uploaded the images into Gmail
on July 9 and logged into the account several times
during the prior month. From the second IP address,
someone had registered the account on January 29,
2015. Id.
Once NCMEC received this report, its systems performed a “WhoIs lookup” for the IP addresses. This
search identified their location as Fort Mitchell, Kentucky, and their internet service provider as Time
Warner Cable. Id., PageID#172. An analyst next
searched for information connected to miller694u@gmail.com. Id., PageID#174–77. This email
was affiliated with a profile page of “Bill M.” on the
social-media website “Tagged.” Id. The profile page included a picture of “Bill M.” The analyst attached a
printout of the page with the picture to the report. Id.,
PageID#177. The analyst did not view the files.
NCMEC sent the report and files to the Kentucky

9a
State Police. The state police forwarded this information to the police department in Kenton County
(the county encompassing Fort Mitchell).
On August 13, 2015, Detective Aaron Schihl with
the Kenton County Police Department received the report. Schihl opened and viewed the two files and confirmed that they showed prepubescent children engaged in sex acts.
After subpoenaing Time Warner Cable, Schihl
learned that the IP address that uploaded the child
pornography was assigned to subscriber “Tania Miller” at a Fort Mitchell home address. He also learned
that “William Jay Miller” had a driver’s license that
listed this address. Schihl obtained a warrant for the
records that Google retained for this Gmail account.
The records identified “Bill Miller” as the subscriber.
Google provided about 4,000 emails and chat messages, as well as information in a file-storage account.
Schihl found more child pornography in the file-storage account and in email exchanges from May 2015.
Schihl next got a warrant to search Miller’s home.
In October 2015, the police seized computers, flash
drives, and hard drives. A forensic examination of an
external hard drive turned up 571 child-pornography
files (including the files from the July 9 email) organized in folders named things like “pre-teen.” The IP
address for Miller’s laptop matched an IP address
from the CyberTipline Report, and the laptop appeared to have been connected to the external hard
drive. In an interview with Schihl, Miller admitted
that his hard drive contained child pornography, but
claimed that the images had been on the drive when
he bought it at a yard sale a year earlier. A forensic

10a
examination, in fact, showed that the child-pornography files had been created on the hard drive a week
before the July 9 email.
The government indicted Miller on seven counts of
knowingly receiving, distributing, or possessing child
pornography. 18 U.S.C. § 2252(a)(2), (a)(4)(B). These
counts corresponded to the email exchanges of child
pornography from May 2015, the email containing the
two files on July 9, and the files on the hard drive in
Miller’s home. Miller moved to suppress this evidence
on the ground that the police learned of the child-pornography images attached to the July 9 email in violation of the Fourth Amendment. The district court
denied his motion. United States v. Miller, 2017 WL
2705963, at *8 (E.D. Ky. June 23, 2017).
Miller stood trial. The government introduced the
CyberTipline Report through the testimony of an
NCMEC director. Miller raised a Confrontation
Clause objection because this witness was not the analyst who had worked on the report. The district court
overruled his objection.
As Miller’s main defense, his counsel argued that
he was not the person who had emailed child pornography or placed child pornography on the hard drive.
Counsel highlighted that a few emails about a cellphone rebate sent to this Gmail account had been addressed to Miller’s brother, Fred Miller. Miller’s wife,
mother-in-law, and daughter testified that Fred,
whom they described as “strange” or “simple-minded,”
came to their house about once a week and sometimes
used Miller’s laptop.
The government sought to rebut Miller’s attempt
to shift blame to his brother. Detective Schihl went
through many messages from the Gmail account

11a
showing a person named “Bill” propositioning women
using Miller’s photos. Schihl also testified that the
“Tagged” profile page connected to this Gmail account
used a picture of Miller. The forensic examiner likewise explained that the hard drive with the child-pornography folders included a folder named “me” full of
Miller’s pictures. And it contained Skype messages requesting pictures of naked children using the display
name “Bill Miller.”
The jury convicted Miller on all counts. The district
court sentenced him to 150 months in prison followed
by 15 years of supervised release.
Miller appeals. He argues: (1) that the government
violated his Fourth Amendment right against unreasonable searches; (2) that the district court violated
his Sixth Amendment right to confront witnesses; and
(3) that district court wrongly found sufficient evidence to convict him.
II. Fourth Amendment
The Fourth Amendment provides in relevant part:
“The right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable
searches and seizures, shall not be violated[.]” U.S.
Const. amend. IV. Miller asserts that the government
committed two “unreasonable searches”: the first
when Google discovered the two files in Miller’s email
on July 9 and the second when Detective Schihl later
opened and viewed those files.
A. Did Google’s has-value matching violate the
Fourth Amendment?
Miller claims that Google conducted an “unreasonable search” by scanning his July 9 email for hash-

12a
value matches. This claim faces an immediate (and ultimately insurmountable) obstacle: Google is a private
entity. Like other constitutional rights, see Manhattan Cmty. Access Corp. v. Halleck, 139 S. Ct. 1921,
1928 (2019), the Fourth Amendment regulates only
government action, United States v. Jacobsen, 466
U.S. 109, 113 (1984). If, for example, a private party
enters your home in search of incriminating papers,
that party may have committed a trespass under state
tort law, but the party has not engaged in an unreasonable search under the Fourth Amendment. See
Burdeau v. McDowell, 256 U.S. 465, 475 (1921). Indeed, until it was incorporated against the states, the
Fourth Amendment did not even apply to state officers (like Detective Schihl) who acted independently of
federal officers. See Byars v. United States, 273 U.S.
28, 33–34 (1927); cf. Elkins v. United States, 364 U.S.
206, 215 (1960). And although the Fourteenth Amendment has now expanded the Fourth Amendment’s
reach to cover state actors, it too regulates only government action, not private action. See Civil Rights
Cases, 109 U.S. 3, 17–18 (1883).
This “government” action most obviously exists
when public employees perform public functions. See
West v. Atkins, 487 U.S. 42, 49–50 (1988). But the
Constitution does not compel governments to conduct
their affairs through the “public employees” that they
typically use today. Spencer v. Lee, 864 F.2d 1376,
1379 (7th Cir. 1989) (en banc). Historically, “[p]rivate
citizens were actively involved in government work,
especially where the work most directly touched the
lives of the people.” Filarsky v. Delia, 566 U.S. 377,
385 (2012). It was, for example, “a common practice in
this country for private watchmen or guards to be
vested with the powers of policemen, sheriffs or peace

13a
officers to protect the private property of their private
employers,” but states considered them “public officers when performing their public duties.” NLRB v.
Jones & Laughlin Steel Corp., 331 U.S. 416, 429, 431
(1947). And “[t]he Constitution constrains governmental action ‘by whatever instruments or in whatever modes that action may be taken.’” Lebron v. Nat’l
R.R. Passenger Corp., 513 U.S. 374, 392 (1995) (quoting Ex parte Virginia, 100 U.S. 339, 346–47 (1880)).
This rule raises the key question: When should a
private party’s actions be “fairly attributable” to the
government and trigger the Constitution’s protections? Lugar v. Edmondson Oil Co., 457 U.S. 922, 937
(1982). One approach to this constitutional “agency”
question would be to review our legal traditions and
consider situations in which our laws have historically
imputed one person’s conduct to another. After all,
“traditional agency principles were reasonably well
ensconced in the law at the time of the founding[.]”
United States v. Ackerman, 831 F.3d 1292, 1301 (10th
Cir. 2016) (Gorsuch, J.). Yet the Supreme Court has
stated that “[w]hat is fairly attributable is a matter of
normative judgment, and the criteria lack rigid simplicity.” Brentwood Acad. v. Tenn. Secondary Sch.
Athletic Ass’n, 531 U.S. 288, 295 (2001). It has adopted
a fact-bound approach to this attribution question,
one that uses “different factors or tests in different
contexts.” Lugar, 457 U.S. at 939. Sometimes, the
Court uses a “function” test that asks whether a private party performs a public function. Romanski v.
Detroit Ent., L.L.C., 428 F.3d 629, 636 (6th Cir. 2005).
Other times, the Court uses a “compulsion” test that
asks whether the government compelled a private
party’s action. Id. Still other times, the Court uses a

14a
“nexus” test that asks whether a private party cooperated with the government. Id.; see Halleck, 139 S. Ct.
at 1928.
As the party seeking to suppress evidence, Miller
must prove that Google’s actions were government actions under one of these tests. United States v. Ringland, 966 F.3d 731, 735 (8th Cir. 2020); cf. United
States v. Baker, 976 F.3d 636, 645 (6th Cir. 2020). He
has fallen short.
1. Did Google perform a public function? The Supreme Court has held that some functions qualify as
“government” functions no matter who performs
them. Halleck, 139 S. Ct. at 1928–29. Yet few activities qualify. Id. at 1929. If a function is always a “government” action, it means that the government may
not deregulate by allowing private parties to perform
the action without becoming the “government” themselves. See Spencer, 864 F.2d at 1379. This test thus
covers only those limited activities—for example, running a city—that have “traditionally and exclusively”
been performed by the government. Durante v. Fairlane Town Ctr., 201 F. App’x 338, 341 (6th Cir. 2006)
(citing Jackson v. Metro. Edison Co., 419 U.S. 345, 352
(1974)); see Marsh v. Alabama, 326 U.S. 501, 505–09
(1946). Most activities—such as providing electricity,
operating a nursing home, or managing a public-access television station—will not qualify. See Halleck,
139 S. Ct. at 1929; Blum v. Yaretsky, 457 U.S. 991,
1011–12 (1982); Jackson, 419 U.S. at 352–53.
Miller has not shown that Google’s hash-value
matching satisfies this test. Admittedly, the investigation of a crime (like the possession of child pornography) has long been performed by the government.
Ackerman, 831 F.3d at 1295. But it has also long been

15a
performed by private parties protecting their property. Think of shopkeepers investigating theft by
shoplifters or insurance companies investigating arson by claimants. See Chapman v. Higbee Co., 319
F.3d 825, 833–34 (6th Cir. 2003) (en banc); United
States v. Howard, 752 F.2d 220, 227–28 (6th Cir.
1985), adopted en banc in relevant part 770 F.2d 57,
62 (6th Cir. 1985). Only when a party has been “endowed with law enforcement powers beyond those enjoyed by” everyone else have courts treated the party’s
actions as government actions. Ackerman, 831 F.3d at
1296; see Romanski, 428 F.3d at 636–37. And Miller
identifies nothing that gave Google any special police
powers.
2. Did Google act under compulsion? Even if a private party does not perform a public function, the
party’s action might qualify as a government act if the
government “has exercised coercive power or has provided such significant encouragement, either overt or
covert, that the choice must in law be deemed to be
that of the” government. Blum, 457 U.S. at 1004; see
Adickes v. S. H. Kress & Co., 398 U.S. 144, 170–71
(1970). When, for example, federal regulations compelled private railroads to conduct post-accident drug
and alcohol testing of employees involved in train accidents, the Supreme Court held that the railroads
were engaged in “government” searches. Skinner v.
Ry. Labor Execs.’ Ass’n, 489 U.S. 602, 614 (1989). Not
only that, when other regulations merely permitted
railroads to undertake this testing in other situations,
the Court held that even these tests qualified as “government” searches. Id. at 611–12, 615. Several “features” of these regulations led the Court to treat the
nonmandatory private testing as government action.
Id. at 615. The regulations preempted conflicting

16a
state laws and collective-bargaining terms, conferred
on the government a right to receive test results,
barred railroads from contracting away their testing
rights, and prohibited employees from refusing to take
tests. Id.
At the same time, private action does not become
government action merely because the government
authorizes or acquiesces in it. See Flagg Bros., Inc. v.
Brooks, 436 U.S. 149, 164–65 (1978). Even extensive
regulation of a private party will not turn its every action into government action. See Am. Mfrs. Mut. Ins.
Co. v. Sullivan, 526 U.S. 40, 57–58 (1999). The Supreme Court thus refused to find “government” action
when a utility disconnected a customer’s electricity
even though the utility had been subject to broad state
oversight and the state had approved the utility’s general disconnection practice. See Jackson, 419 U.S. at
352–58.
Miller has not shown that Google’s hash-value
matching falls on the “compulsion” side of this line. He
cites no law that compels or encourages Google to operate its “product abuse detection system” to scan for
hash-value matches. Federal law disclaims such a
mandate. It says that providers need not “monitor the
content of any [customer] communication” or “affirmatively search, screen, or scan” files. 18 U.S.C. §
2258A(f). Nor does Miller identify anything like the
government “encouragement” that the Court found
sufficient to turn a railroad’s drug and alcohol testing
into “government” testing. See Skinner, 489 U.S. at
615. In that context, regulations authorized the testing and barred railroads from contracting away their
rights. Id. In this context, Miller identifies no regulations authorizing Google’s hash-value matching or
barring Google from changing its terms of service to

17a
prohibit the practice. See United States v. Richardson,
607 F.3d 357, 365–67 (4th Cir. 2010). Google’s decision
to scan its customers’ files is instead like the utility’s
decision to disconnect its customers’ electricity: The
“initiative” to take both actions “comes from” the private party, not the government. Jackson, 419 U.S. at
357.
Miller responds by identifying government compulsion for a different activity. Federal law requires
“electronic communication service providers” like
Google to notify NCMEC when they become aware of
child pornography. 18 U.S.C. § 2258A(a). But this
mandate compels providers only to report child pornography that they know of; it does not compel them
to search for child pornography of which they are unaware. Id. § 2258A(f). And the Supreme Court’s cases
tell us to focus on “the specific conduct of which [a
party] complains.” Sullivan, 526 U.S. at 51 (quoting
Blum, 457 U.S. at 1004). That conduct is Google’s
hash-value matching, not its reporting.
Precedent confirms this point. Many courts have
found that a “reporting requirement, standing alone,
does not transform [a service provider] into a government agent whenever it chooses to scan files sent on
its network for child pornography.” Ringland, 966
F.3d at 736 (quoting United States v. Stevenson, 727
F.3d 826, 830 (8th Cir. 2013)); United States v. Cameron, 699 F.3d 621, 637–38 (1st Cir. 2012); United
States v. Wolfenbarger, 2019 WL 6716357, at *13–16
(N.D. Cal. Dec. 10, 2019) (citing cases). More generally, many laws require certain individuals, such as
teachers or doctors, to report child abuse. In that context, too, courts have held that reporting mandates do
not transform private parties into government actors
for purposes of various constitutional provisions. See,

18a
e.g., Mueller v. Auker, 700 F.3d 1180, 1191–92 (9th
Cir. 2012); Brown v. Newberger, 291 F.3d 89, 93–94
(1st Cir. 2002).
History also confirms the point. At common law,
citizens had “a duty to raise the ‘hue and cry’ and report felonies” of which they were aware. Branzburg v.
Hayes, 408 U.S. 665, 696 & nn.34–35 (1972). A person
might commit a “misprision of felony” by failing to do
so. United States v. Caraballo-Rodriguez, 480 F.3d 62,
71 (1st Cir. 2007); see Carl Wilson Mullis, Misprision
of Felony: A Reappraisal, 23 Emory L.J. 1095 (1974).
It would be odd to think that this reporting duty
turned the entire populace into government actors. Cf.
Doe v. Rains Cnty. Indep. Sch. Dist., 66 F.3d 1402,
1411 (5th Cir. 1995). Indeed, English law imposed a
harsher sentence on a “public officer” who failed to report a crime (as compared to a “common person”); it
did not treat everyone as a government officer. 4 William Blackstone, Commentaries on the Laws of England *121. At the least, Miller has not shown that this
common reporting duty turns private parties into public actors whenever they do something other than disclose a crime, such as voluntarily investigate it.
3. Did Google have a nexus to government actors?
Private action might still be attributed to the government if “a sufficiently close nexus” exists between a
private party and government actors. Jackson, 419
U.S. at 351; cf. Byars, 273 U.S. at 32–34. Our traditions can shed light on the required “nexus.” Cf. Ackerman, 831 F.3d at 1301. At common law, for example,
a conspirator’s actions were imputed to coconspirators, so private action could be treated as government
action if private and public actors conspired to violate
constitutional rights. Rudd v. City of Norton Shores,
977 F.3d 503, 512–13 (6th Cir. 2020). Similarly, at

19a
common law, an agency relationship was created
through a “manifestation of consent by one person to
another that the other shall act on his behalf and subject to his control, and consent by the other so to act.”
Ackerman, 831 F.3d at 1301 (quoting Restatement
(Second) of Agency § 1 (Am. L. Inst. 1958)). In the
search context, our cases have asked two questions to
identify these constitutional agency relationships:
What was the private party’s intent in undertaking a
search? And did the government acquiesce to the
search? See United States v. Bowers, 594 F.3d 522,
525–26 (6th Cir. 2010).
Miller failed to show that Google acted as a government agent under this test. Consider Google’s intent. Miller cites nothing suggesting that it intended
to act as a police agent. Google instead sought to rid
its virtual spaces of criminal activity for the same reason that shopkeepers have sought to rid their physical
spaces of criminal activity: to protect their businesses.
See Chapman, 319 F.3d at 834. Google does not want
its services to become a “haven for abusive content”
because customers will stop using them if that occurs.
McGoff Decl., R.33-1, PageID#161; see Stevenson, 727
F.3d at 830–31. And Google “cooperated” with law enforcement in this case only by sending a report. Yet
courts typically reject arguments that a private
party’s decision to call 911 or report a crime creates
an “agency” relationship with the responding authorities. See, e.g., Moldowan v. City of Warren, 578 F.3d
351, 399 (6th Cir. 2009).
Now consider the government’s perspective. Miller
again cites no evidence that Detective Schihl or any
other law-enforcement officer influenced Google’s decision to scan the files in the July 9 email for hashvalue matches. See Richardson, 607 F.3d at 364–65.

20a
Police got involved only after Google had performed
that scan and uncovered the crime. See Burdeau, 256
U.S. at 474–75; cf. United States v. Booker, 728 F.3d
535, 540–45 (6th Cir. 2013).
Miller responds that Google has cooperated with
NCMEC in other ways, including by participating in
an NCMEC-led exchange of child-pornography hash
values and by helping design NCMEC’s standard report. Miller argues that these activities create a nexus
with the government because he asks us to treat
NCMEC, a private entity, as a government actor. The
Tenth Circuit viewed NCMEC in that light. Ackerman, 831 F.3d at 1295–1300. We need not take a position on it. Even if NCMEC were a government actor,
these activities do not show that Google acted as an
NCMEC “agent” when engaging in the specific hashvalue scanning at issue here. Google did not even scan
for any NCMEC-provided hash values during the relevant time. McGoff Decl., R.33-1, PageID#162. And
child pornography is tragically common. So it makes
sense for providers that must report it to create a generic form for their “convenience,” whether or not they
have agreed with government actors to conduct
searches. See Gramenos v. Jewel Cos., 797 F.2d 432,
435–36 (7th Cir. 1986). Google’s hash-value matching
thus did not implicate the Fourth Amendment.
B. Was Detective Schihl’s viewing of the images an
“unreasonable search”?
Unable to rely on Google’s private actions, Miller
turns to Detective Schihl’s public actions. Miller argues that Schihl conducted an illegal “search” when,
without a warrant, he viewed the files that Google
sent. In recent years, the Supreme Court has followed

21a
two approaches to decide whether a Fourth Amendment “search” has occurred. Taylor v. City of Saginaw,
922 F.3d 328, 332 (6th Cir. 2019). Miller invokes both.
Using the Supreme Court’s primary definition of a
“search,” he argues that Detective Schihl invaded his
“reasonable expectation of privacy” when viewing the
files. Using an alternative property-based definition,
Miller also argues that Schihl committed a “trespass”
when viewing the files. We address each argument in
turn.
1. Did Detective Schihl invade Miller’s reasonable expectation of privacy?
When interpreting the Fourth Amendment over
the last fifty years, the Supreme Court has typically
not relied on the usual definition of the word “search”
(“[t]o look over or through for the purpose of finding
something”). Kyllo v. United States, 533 U.S. 27, 32
n.1 (2001) (quoting Noah Webster, An American Dictionary of the English Language 66 (1828) (reprint 6th
ed. 1989)); Morgan v. Fairfield Cnty., 903 F.3d 553,
570–72 (6th Cir. 2018) (Thapar, J., concurring). Since
Katz v. United States, 389 U.S. 347 (1967), the Court
has instead defined the word to mean a government
intrusion into a person’s “expectation of privacy that
society is prepared to consider reasonable.” United
States v. Warshak, 631 F.3d 266, 284 (6th Cir. 2010)
(quoting Jacobsen, 466 U.S. at 113). This definition requires us to consider whether a person has an expectation of privacy in the space the government invaded
and whether that subjective expectation is objectively
reasonable. Id.
We thus must consider whether Miller had a reasonable expectation of privacy in the two files that De-

22a
tective Schihl viewed. We begin, though, by identifying two questions that we need not consider. The first:
Did Miller have a reasonable expectation of privacy in
his Gmail account? Our court has held that individuals generally have reasonable expectations of privacy
in the emails that they send through commercial providers like Google. Id. at 283–88. (Caselaw on this issue remains “surprisingly sparse” outside our circuit.
2 Wayne R. LaFave et al., Crim. Proc. § 4.4(c) (4th ed.),
Westlaw (database updated Dec. 2019).) Yet Google’s
terms of service also permit it to view its customers’
content for illegal items. Warshak added “that a subscriber agreement might, in some cases, be sweeping
enough to defeat a reasonable expectation of privacy
in the contents of an email account” (while suggesting
that this outcome would be rare). 631 F.3d at 286. But
here we need not consider whether Google’s terms are
of the “sweeping” sort and will assume that Miller had
a reasonable expectation of privacy in his email.
The second: Did the hash-value matching “invade”
Miller’s reasonable expectation of privacy? According
to the Supreme Court, binary searches that disclose
only whether a space contains contraband are not
Fourth Amendment “searches.” Illinois v. Caballes,
543 U.S. 405, 408 (2005). The Court has held, for example, that the government does not invade a reasonable expectation of privacy when a police dog sniffs
luggage for drugs. United States v. Place, 462 U.S.
696, 706–07 (1983). Yet the Court has also held that a
thermal-imaging device detecting the heat emanating
from a house invades such an expectation because it
can show more than illegal growing operations (such
as the “hour each night the lady of the house takes her
daily sauna and bath”). Kyllo, 533 U.S. at 38. Which
category does hash-value matching fall within? Is it

23a
like a dog sniff? Or a thermal-imaging device? We also
need not consider this question and will assume that
hash-value searching counts as an invasion of a reasonable expectation of privacy. Cf. Richard P. Salgado,
Fourth Amendment Search and the Power of the Hash,
119 Harv. L. Rev. F. 38 (2005).
We do not resolve these questions because Detective Schihl did not monitor the Gmail account. Google
did. This case thus concerns another part of the
Court’s expectation-of-privacy test known as the “private-search doctrine.” See United States v. Lichtenberger, 786 F.3d 478, 481–82 (6th Cir. 2015); see also
United States v. Reddick, 900 F.3d 636, 637 (5th Cir.
2018). The Court has held that government conduct
does not infringe a reasonable expectation of privacy
(or qualify as a “search”) if the conduct does not exceed
the “scope” of an earlier private search. Jacobsen, 466
U.S. at 115. Two cases created this doctrine and illustrate its boundaries. Id. at 118–26; Walter v. United
States, 447 U.S. 649, 653–59 (1980) (Stevens, J., opinion).
Start with Jacobsen. There, Federal Express employees opened a package for insurance reasons because it had been damaged in route. 466 U.S. at 111.
Within this box, they discovered a tube “made of the
silver tape used on basement ducts” covered by newspaper. Id. They cut open the tube and found bags with
white powder. Id. The employees returned the bags to
the tube and the tube to the box and called the police.
Id. A DEA agent arrived and took everything back out.
Id. The agent also conducted a field test of the powder
to determine if it was cocaine. Id. at 111–12, 122. The
Court rejected a Fourth Amendment challenge to the
agent’s actions. Id. at 113–26. It described the key
question as whether those actions “exceeded the

24a
scope” of the private search. Id. at 115. To answer this
question, the Court divided the actions into two parts,
separately analyzing the agent’s decision to examine
the box and test the powder. As for the examination,
the Court held that the agent’s conduct “infringed no
legitimate expectation of privacy and hence was not a
‘search’” because the employees had also searched the
box and made it freely available. Id. at 118–20. As for
the testing, the Court concluded that it exceeded the
scope of the private search. Id. at 122. But it held that
the testing was not a “search” for a different reason:
because, like a dog sniff, it could reveal only whether
the powder was (or was not) cocaine. Id. at 123.
Turn to Walter. There, packages containing boxes
of films were delivered to the wrong company. 447
U.S. at 651 (Stevens, J., opinion). The company’s employees opened the packages and discovered that the
boxes had “explicit descriptions” suggesting the films
were obscene. Id. at 652. After the employees called
the FBI, agents watched the films to confirm their obscenity status. Id. In a fractured decision, the Court
found a Fourth Amendment violation from the decision to watch the films without obtaining a warrant.
See Jacobsen, 466 U.S. at 115–16. Justice Stevens’s
opinion reasoned that “the unauthorized exhibition of
the films constituted an unreasonable invasion of
their owner’s constitutionally protected interest in
privacy.” 447 U.S. at 654 (Stevens, J., opinion). The
private employees had seen only the labels, and
watching the films was a “significant expansion” of
that search. Id. at 657; see also id. at 661–62 (White,
J., concurring in part and concurring in the judgment).
What rule emerges from these cases to decide
when government actions “exceed[] the scope of the

25a
private search”? Jacobsen, 466 U.S. at 115. Jacobsen
suggested that the box “could no longer support any
expectation of privacy” because “there was a virtual
certainty” that the DEA agent would learn nothing
more by reopening the box than what the FedEx employees had learned in their initial search of it. Id. at
119, 120 n.17, 121. Walter suggested that the films
could support an expectation of privacy because the
FBI agents would learn much more by watching the
films than what the private employees had learned
from viewing the labels alone, which permitted only
“inferences about what was on the films.” 447 U.S. at
657 (Stevens, J., opinion). Putting these outcomes together, we have held that the private-search doctrine
requires a private actor’s search to create a “virtual
certainty” that a government search will disclose
nothing more than what the private party has already
discovered. See Lichtenberger, 786 F.3d at 488; cf.
United States v. Runyan, 275 F.3d 449, 463–64 (5th
Cir. 2001) (substantial-certainty test).
Applying this test, we must ask whether Google’s
hash-value search of the files using its digital eyes
made it virtually certain that Detective Schihl would
discover no more than what Google had learned when
he viewed the images with his human eyes. Jacobsen,
466 U.S. at 119. We are helped in this endeavor by two
thoughtful decisions applying the private-search doctrine in this new context. Reddick, 900 F.3d at 638–
39; Ackerman, 831 F.3d at 1305–07.
In Ackerman, AOL matched one image in the defendant’s email with a child-pornography hash value.
AOL sent the email and its four images to NCMEC.
831 F.3d at 1294. An NCMEC analyst viewed the
email and images. Id. In an opinion by then-Judge
Gorsuch, the Tenth Circuit held that NCMEC’s search

26a
exceeded the scope of AOL’s search. Id. at 1305–06.
AOL learned only that a single image had a hashvalue match, but the NCMEC analyst viewed the entire email. Id. The analyst’s search thus disclosed a lot
more information: whether the other images were
child pornography and whether the email contained
correspondence. Id. Yet Ackerman reserved whether
its holding would change if the analyst had viewed
only the one image. Id. at 1306.
In Reddick, the Fifth Circuit considered this reserved question. There, the defendant loaded images
into a Microsoft account with hash values matching
child pornography. 900 F.3d at 637–38. Microsoft sent
the images to NCMEC, which shared them with a detective. Id. at 638. The court held that the detective’s
viewing did not exceed the scope of Microsoft’s search.
Id. at 639. It gave two reasons. Microsoft’s hash-value
matching allowed it to identify child pornography
“with almost absolute certainty[.]” Id. (citation omitted). And the detective’s viewing “was akin to the government agents’ decision to conduct chemical tests on
the white powder in Jacobsen.” Id.
Our case is like Reddick rather than Ackerman because Detective Schihl viewed only files with hashvalue matches. And we agree with Reddick’s holding
that the private-search doctrine applies. But we opt
not to rely on Reddick’s second reason: that the detective’s viewing of the images was like the DEA agent’s
testing of the powder in Jacobsen. Jacobsen recognized that this testing “exceeded the scope” of the
FedEx employees’ search, so the Court held that it did
not qualify as a “search” for a reason unrelated to the
private-search doctrine. 466 U.S. at 122. The binary
test revealed only “whether or not a suspicious white

27a
powder was cocaine.” Id. If the test came back negative, it would not disclose what the substance was—
whether “sugar or talcum powder.” Id. This logic does
not cover Schihl’s actions. If the files portrayed something other than child pornography, Schihl would
have learned what they showed—whether an embarrassing picture of the sender or an innocuous family
photo. His inspection (unlike the test) qualifies as the
invasion of a “legitimate privacy interest” unless
Google’s actions had already frustrated the privacy interest in the files. Id. at 123; cf. Riley v. California,
573 U.S. 373, 401 (2014).
Rather than compare Schihl’s viewing of the files
to the agent’s field test, we must compare Google’s
search of the files to the FedEx employees’ search of
the box. Did Google’s “electronic” inspection create the
same level of certitude as the FedEx employees’ “manual” inspection that the later government search
would reveal nothing more than what the private parties had already discovered? Recall what Google had
learned. At some point, Google employees who are
trained on the federal definition of child pornography
viewed two images to confirm that they are illegal
child pornography before adding them to its child-pornography
repository.
McGoff
Decl.,
R.33-1,
PageID#161. Google used its hashing technology to
scan the images and give them hash values. Id.,
PageID#161–62. It coded the files as prepubescent minors engaged in sex acts. Id., PageID#162; Rep., R.332, PageID#170–72. Lastly, Google scanned the two
files from Miller’s July 9 email to confirm that those
files had the same hash values and were duplicates of
the images that its employees had previously viewed.
McGoff Decl., R.33-1, PageID#161–62.

28a
Jacobsen requires us to apply the public-search
doctrine if there is a “virtual certainty” that Schihl’s
viewing of the files would disclose the same images
that Google’s employees had already viewed. Lichtenberger, 786 F.3d at 488. At bottom, then, this case
turns on the question whether Google’s hash-value
matching is sufficiently reliable. Yet the caselaw
leaves unclear how we should go about answering that
question. Should we treat it as a legal issue subject to
de novo review because it is more like a “legislative
fact” (to be decided uniformly) than an “adjudicative
fact” (to be decided anew by hundreds of district
judges)? Cf. A Woman’s Choice-East Side Women’s
Clinic v. Newman, 305 F.3d 684, 688 (7th Cir. 2002);
Kenneth C. Davis, An Approach to Problems of Evidence in the Administrative Process, 55 Harv. L. Rev.
364, 402–10 (1942). Or should we treat it as a fact issue subject to clear-error review because it turns on
historical facts about a technology’s reliability? Cf.
Glossip v. Gross, 576 U.S. 863, 881 (2015). This clearerror standard might at least govern subsidiary questions. Google, for example, used its own proprietary
technology in this case, and presumably a defendant
may challenge a specific program’s reliability even if
a general technology is foolproof when performed
properly. Cf. Florida v. Harris, 568 U.S. 237, 247–48
(2013).
We leave these questions for another day. Miller,
who bore the burden of proof, never “challenge[d] the
reliability of hashing” in the district court. United
States v. Miller, 2017 WL 2705963, at *5 n.2 (E.D. Ky.
June 23, 2017); see Baker, 976 F.3d at 645. The magistrate judge, whose findings the district court
adopted, found that the technology was “highly reliable—akin to the reliability of DNA.” United States v.

29a
Miller, 2017 WL 9325815, at *10 (E.D. Ky. May 19,
2017). The evidence in one cited case suggested that
“[t]he chance of two files coincidentally sharing the
same hash value is 1 in 9,223,372,036,854,775,808.”
United States v. Dunning, 2015 WL 13736169, at *2
(E.D. Ky. Oct. 1, 2015) (citation omitted). (That is 1 in
9.2 quintillion in case you were wondering.) Another
cited source suggested that the common algorithms
“will generate numerical identifiers so distinctive that
the chance that any two data sets will have the same
one, no matter how similar they appear, is less than
one in one billion.” Barbara J. Rothstein et al., Managing Discovery of Electronic Information: A Pocket
Guide for Judges 38 (2d ed. Federal Judicial Center
2012). Miller points us to no contrary sources. This
(unchallenged) information satisfies Jacobsen’s virtual-certainty test and triggers its private-search doctrine.
New technologies can cut in both directions when
courts attempt the difficult task of applying fixed
rules to them. If a private party manually searched
just one bankers box, the police likely would exceed
the scope of that search under Jacobsen if they manually searched many other nearby boxes. Compare
United States v. Richards, 301 F. App’x 480, 483 (6th
Cir. 2008), with United States v. Williams, 354 F.3d
497, 510 (6th Cir. 2003). Because a computer can hold
substantially more information than a box, we held in
a related context, a private search of some computer
files does not give the government license to search
the entire computer. Lichtenberger, 786 F.3d at 488–
89. We reasoned that the latter search would reveal
much more information and be equivalent to the
search of the many other unopened boxes. Id.; see Orin

30a
S. Kerr, Searches and Seizures in a Digital World, 119
Harv. L. Rev. 531, 541–43 (2005).
Here, by contrast, the information on which the
district court relied suggests that a computer’s “virtual” search of a single file creates more certainty
about the file’s contents than a person’s “manual”
search of the file. Most people who view images do not
use a magnifying glass to undertake a pixel-by-pixel
inspection. Common hash algorithms, by contrast,
catalogue every pixel. Johnson Tr., R.106,
PageID#1290–91. Suppose a private party gets only a
quick view of a picture before concluding that it is
child pornography and handing the picture to the police. Cf. Bowers, 594 F.3d at 524. Under Jacobsen, that
inspection would likely trigger the private-search doctrine and allow the police to reexamine the picture
“more thoroughly,” Runyan, 275 F.3d at 464, despite
the “risk of a flaw in the [person’s] recollection,” Jacobsen, 466 U.S. at 119. What sense would it make to
treat a more accurate search of a file differently?
In response, Miller compares a hash value to the
“explicit descriptions” on the film boxes that Walter
found insufficient to permit the FBI’s viewing of the
films. 447 U.S. at 652 (Stevens, J., opinion). Miller
would have a point if Google forwarded the image files
to Schihl based on their names alone: “young - tight
fuck.jpg” and “!!!!!!Mom&son7.jpg.” Rep., R.33-2,
PageID#170. But the hash-value searches revealed
much more information than those descriptions.
Google’s technology “opened” and “inspected” the files,
revealing that they had the same content as files that
Google had already found to be child pornography.

31a
An amicus supporting Miller next points out that
the Google employees who add files to its child-pornography repository might mistake a lawful image for
an illegal one. Yet that is not a type of error that matters under the private-search doctrine. Just because a
private party turns out to be wrong about the legality
of an item that the party discloses to police does not
mean that the police violate the Fourth Amendment
when they reexamine the item. If, for example, the
powder in Jacobsen had tested negative for cocaine,
that result would not have transformed the DEA
agent’s reexamination of the box into a Fourth
Amendment “search.” See 466 U.S. at 123. Nor would
the police conduct a Fourth Amendment “search” if
the pictures that a private party provides turn out not
to be “child pornography” under 18 U.S.C. § 2256. See
Bowers, 594 F.3d at 526. And Google employees
trained on this federal definition are much more likely
to accurately identify child pornography than a person
who comes across one disturbing image.
Does Carpenter v. United States, 138 S. Ct. 2206
(2018), change things? It held that an individual has
“a legitimate expectation of privacy in the record of his
physical movements as captured” by cell-site location
information—even though this information is kept by
(and disclosed to) a third-party wireless carrier. Id. at
2217. The Court reasoned that the tracking of a person’s cellphone “achieves near perfect surveillance” of
the person over the many years that the carrier retains the data. Id. at 2218. We fail to see how this
holding can help Miller. Carpenter may well confirm
our prior decision that individuals have a reasonable
expectation of privacy in their emails—even though
those emails (like the cellphone data) are kept by third
parties. See id. at 2222 (citing Warshak, 631 F.3d at

32a
283–88); id. at 2262–63, 2269 (Gorsuch, J., dissenting). But Carpenter asked only whether the government engaged in a “search” when it compelled a carrier to search its records for certain information that
the government demanded. Id. at 2222. Carpenter did
not cite Jacobsen, let alone address its private-search
doctrine. Here, moreover, the government did not
compel Google’s hash-value matching (unlike the carrier’s subpoena-induced search of cell-site records).
And Miller has no legitimate expectation of privacy in
illegal contraband like child pornography (unlike cellsite records). Jacobsen, 466 U.S. at 123. In short, we
agree with Reddick’s conclusion that Jacobsen controls this case. 900 F.3d at 637–39.
2. Did Detective Schihl conduct a search under a
“trespass” approach?
Perhaps Jacobsen should not control. The Supreme Court recently clarified that the invasion of a
“reasonable expectation of privacy” is not the only way
to define a Fourth Amendment “search.” “For much of
our history, Fourth Amendment search doctrine was
‘tied to common-law trespass’ and focused on whether
the Government ‘obtains information by physically intruding on a constitutionally protected area.’” Carpenter, 138 S. Ct. at 2213 (quoting United States v. Jones,
565 U.S. 400, 405, 406 n.3 (2012)). Unlike the defendant in Reddick, Miller asks us to find that Detective
Schihl engaged in a search under this alternative theory.
Jones recently reinvigorated the trespass approach. There, the police attached a GPS device to the
defendant’s car and tracked the car’s movements for
weeks. 565 U.S. at 402–03. The government argued
that no search occurred because the defendant had no

33a
reasonable expectation of privacy in his movements
on public roads. Id. at 406. The Court disagreed, holding that the installation of the GPS device qualified as
a “search” because the government “physically occupied private property for the purpose of obtaining information.” Id. at 404. According to the Court, the expectation-of-privacy test can expand the scope of areas
protected by the Fourth Amendment, but it cannot
eliminate protection for areas that the traditional
“trespass” definition of a search would cover. Id. at
405–08; see also Taylor, 922 F.3d at 332–33.
How might Jones’s property-based approach apply
here? An obvious analogy helps Miller at the outset.
The Fourth Amendment protects not just intrusions
into a person’s “house,” but also invasions of the person’s “papers” and “effects.” See U.S. Const. amend.
IV. From before the founding, therefore, judges recognized that “[t]he protection of private property extended to letters, papers, and documents.” Laura K.
Donohue, The Original Fourth Amendment, 83 U. Chi.
L. Rev. 1181, 1198 (2016). The famous English cases
that drove the Fourth Amendment’s adoption involved government trespasses to rummage through a
person’s letters and private documents. See Entick v.
Carrington, 95 Eng. Rep. 807, 807–08, 817–18 (K.B.
1765); Wilkes v. Wood, 98 Eng. Rep. 489, 491, 498–99
(C.P. 1763). And there can be no better “analogy from
principle to new technology” than from yesterday’s
mail to today’s email. Ackerman, 831 F.3d at 1308. As
our court has explained, “[e]mail is the technological
scion of tangible mail, and it plays an indispensable
part in the Information Age.” Warshak, 631 F.3d at
286.
Jones thus leads us to consider how courts treated
mailed items at the time of the founding or, perhaps

34a
more importantly given Schihl’s status as a state officer, at the time of the Fourteenth Amendment. This
inquiry again helps Miller at first blush. In Ex parte
Jackson, 96 U.S. 727 (1877), the Court noted that the
right “against unreasonable searches and seizures extends to” “letters” and “sealed packages” “closed
against inspection, wherever they may be.” Id. at 733.
A governmental opening of sealed mail required a
warrant, confirming that this intrusion was a “search”
under a historical understanding. Id. This conclusion
comported with a long tradition. Before then, Thomas
Cooley had opined that any “proposition to permit letters to be opened at the discretion of a ministerial officer, would be met with general indignation.” Thomas
M. Cooley, A Treatise on the Constitutional Limitations Which Rest upon the Legislative Power of the
States of the American Union 306–07 n.2 (1868). And
the first Congress had made it a crime for postal employees to “unlawfully” “open[] any letter, packet, bag
or mail of letters[.]” Act of Feb. 20, 1792, § 16, 1 Stat.
232, 236. Here, moreover, the files in Miller’s email
might be analogized to “sealed” letters—such that
Schihl’s “opening” of the files could be characterized
as a “trespass to chattels” and an illegal “search.” See
Ackerman, 831 F.3d at 1307–08. After all, “[o]utside of
a few narrow exceptions,” federal law prohibits providers from disclosing emails to third parties without
the “consent of one of the communicating parties[.]”
William Baude & James Y. Stern, The Positive Law
Model of the Fourth Amendment, 129 Harv. L. Rev.
1821, 1875–76 (2016).
Yet Miller’s reliance on Jones’s property-based approach encounters trouble when we consider who committed any trespass (and so any “search”) in this case.
The rule that the Fourth Amendment does not protect

35a
against private searches precedes the expectation-ofprivacy test applied in Jacobsen by decades, so the
Court was using the earlier “common-law trespass”
approach when it adopted this rule. See Jones, 565
U.S. at 405; Burdeau, 256 U.S. at 475. And the rule
applied even when a private party committed a trespass. In Burdeau, for example, parties had illegally
“blown open” the safes in which a suspect had kept his
private letters and documents and given these papers
to the government. 256 U.S. at 473–74. Although the
Court suggested that this suspect had “an unquestionable right of redress against those who illegally and
wrongfully took his private property,” it found that
the government’s use of his papers did not violate the
Fourth Amendment (with nary a suggestion that the
government needed a warrant to view them). Id. at
475. Even Jackson, while acknowledging the need for
a warrant, recognized that the government could obtain evidence about sealed mail in other ways, such
“as from the parties receiving the letters or packages,
or from agents depositing them in the post-office, or
others cognizant of the facts.” 96 U.S. at 735. Here
then, if Google’s hash-value matching is akin to a
party “opening” a letter, Google might be the one that
engaged in the trespass. And the government’s later
review of the already opened files might not be considered a search—or at least not an unreasonable one.
Cf. Morgan, 903 F.3d at 571–72 (Thapar, J., concurring); Restatement (First) of Torts § 253 (Am. L. Inst.
1934).
At day’s end, Jacobsen does not permit us to consider this subject further. If Detective Schihl’s viewing
of the files would qualify as a “search” under Jones’s
trespass approach, the DEA agent’s examination of

36a
the box in that case would also qualify. The Tenth Circuit suggested that, after Jones, the Supreme Court
might today “find that a ‘search’ did take place” in Jacobsen. Ackerman, 831 F.3d at 1307. But the fact remains that Jacobsen held that a search did not occur.
466 U.S. at 118–26. Ackerman’s facts were sufficiently
far afield of Jacobsen’s that the Tenth Circuit found
itself unbound by Jacobsen’s rule. 831 F.3d at 1307.
Our facts, by contrast, are on all fours with Jacobsen’s
(when updated for this new technology). Reddick, 900
F.3d at 637–39. No matter how this case should be resolved under a trespass approach, then, our instructions from the Supreme Court are clear: “[I]f a precedent of this Court has direct application in a case, yet
appears to rest on reasons rejected in some other line
of decisions, the Court of Appeals should follow the
case which directly controls, leaving to this Court the
prerogative of overruling its own decisions.” Agostini
v. Felton, 521 U.S. 203, 237 (1997) (citation omitted).
We must follow Jacobsen’s legal rule here.
* * *
One last point. The Fourth Amendment does not
just prohibit unreasonable “searches”; it also prohibits
unreasonable “seizures.” Miller raises no separate
claim that Schihl engaged in an unreasonable “seizure” through his “assertion of dominion and control
over” the digital files sent by Google. Jacobsen, 466
U.S. at 120. (Schihl presumably had a right to seize
the files if his viewing of them did not violate the
Fourth Amendment because police may confiscate
items that “are evidence of a crime or contraband.”
Soldal v. Cook County, 506 U.S. 56, 68 (1992).) We
thus need not consider how the Fourth Amendment’s
seizure rules should extend to digital information that
“can be copied repeatedly, instantly, and freely,”

37a
“zipped around the world in a split second,” and
“stored anywhere and without cost.” Orin S. Kerr, Applying the Fourth Amendment to the Internet: A General Approach, 62 Stan. L. Rev. 1005, 1014 (2010).
III. Sixth Amendment
Miller next argues that the district court violated
the Sixth Amendment’s Confrontation Clause by admitting NCMEC’s CyberTipline Report into evidence.
He may be correct that the admission of certain portions of this report violated the Confrontation Clause.
But his claim fails because he challenges only automated portions that did not.
A
The Confrontation Clause gives “the accused” in
“all criminal prosecutions” the right “to be confronted
with the witnesses against him[.]” U.S. Const. amend.
VI. This clause prohibits the government from introducing some out-of-court statements by individuals
who do not testify at trial and whom the defendant
has not had the opportunity to “confront.” See Crawford v. Washington, 541 U.S. 36, 50–54 (2004). Yet the
clause does not bar the use of all such hearsay. Its text
gives the defendant a right to cross-examine “witnesses,” not “speakers.” A “witness” is one who provides “[t]estimony,” that is, “[a] solemn declaration or
affirmation made for the purpose of establishing or
proving some fact.” Id. at 51 (quoting 2 Noah Webster,
An American Dictionary of the English Language
(1828)). The nature of an out-of-court statement thus
determines whether the clause gives the defendant a
right to cross-examine the person who made it. If an
out-of-court statement is akin to “testimony,” the
clause prohibits the government’s use of the statement unless the person who made it is unavailable to

38a
testify and the defendant has had a prior opportunity
for cross-examination. See id. at 52, 68. If an out-ofcourt statement is not akin to testimony, the clause
falls to the side and leaves the statement’s admissibility to the rules of evidence. See Ohio v. Clark, 576 U.S.
237, 244–45 (2015).
The constitutional dividing line between admissible and inadmissible hearsay thus turns on the difference between “testimonial” and “nontestimonial”
statements. To distinguish between these two types of
statements, the Supreme Court has adopted a “primary-purpose” test. See Davis v. Washington, 547
U.S. 813, 822 (2006). The Court has described this test
in varying ways. It has sometimes noted that a statement made during an out-of-court conversation is testimonial when, “in light of all the circumstances,
viewed objectively, the ‘primary purpose’ of the conversation was to ‘creat[e] an out-of-court substitute for
trial testimony.’” Clark, 576 U.S. at 245 (quoting
Michigan v. Bryant, 562 U.S. 344, 358 (2011)). It has
other times noted that an out-of-court statement is
testimonial if it has “a ‘primary purpose’ of ‘establish[ing] or prov[ing] past events potentially relevant
to later criminal prosecution.’” Bullcoming v. New
Mexico, 564 U.S. 647, 659 n.6 (2011) (quoting Davis,
547 U.S. at 822). Either way, the prime example of
this sort of out-of-court testimony is a person’s statement to the police about a crime during a formal interrogation. See Crawford, 541 U.S. at 53. Conversely,
a person does not give “testimony” when, for example,
the person calls 911 to request help during an emergency. See Davis, 547 U.S. at 827–29. The “primary
purpose of [that] interrogation is to enable police assistance to meet an ongoing emergency,” not to establish a prior fact or create trial evidence. Id. at 822.

39a
This dividing line extends to statements made in
reports. On the one hand, a formal report created for
the purpose of proving a fact at trial is testimonial,
and a defendant has the right to cross-examine the report’s author. See Bullcoming, 564 U.S. at 657–58. Laboratory reports made for trial are good examples of
these “testimonial” reports. In a drug-trafficking trial,
the Supreme Court held that the government could
not introduce an analyst’s sworn report asserting that
a substance connected to the defendant was cocaine.
See Melendez-Diaz v. Massachusetts, 557 U.S. 305,
309–11 (2009). And in a drunk-driving trial, the Court
held that the government could not use an analyst’s
formal, signed certificate asserting that a blood-alcohol test showed the defendant’s blood-alcohol level.
See Bullcoming, 564 U.S. at 658–65.
On the other hand, a report written for a purpose
unrelated to creating evidence or proving past events
is generally nontestimonial. Business records are the
best examples of these reports. Those records are generally admissible without cross-examination of their
authors because they are “created for the administration of an entity’s affairs and not for the purpose of
establishing or proving some fact at trial[.]” Id. at 659
n.6 (quoting Melendez-Diaz, 557 U.S. at 324). Even
some lab reports might fall on this nontestimonial
side of things. See Williams v. Illinois, 567 U.S. 50, 58
(2012) (plurality opinion). In Williams, a fractured Supreme Court found nontestimonial a report that contained “a male DNA profile produced from semen
taken from [the vaginal] swabs” of a rape victim. Id.
at 59. A four-Justice plurality reasoned that the report was nontestimonial because its primary purpose
was “to catch a dangerous rapist who was still at
large,” not to prove a fact for trial. Id. at 84. Justice

40a
Thomas relied on a different rationale. He reasoned
that this DNA report (unlike the reports in Bullcoming and Melendez-Diaz) was nontestimonial because
it lacked sufficient solemnity. Id. at 111–12 (Thomas,
J., concurring in the judgment). Although signed by
reviewers, the report nowhere “attest[ed] that its
statements accurately reflect[ed] the DNA testing
processes used or the results obtained.” Id. at 111.
B
Miller challenges the admission of the CyberTipline Report under these rules. Recall that this report
had three sections with three “authors.” In Section A,
Google identified the date that the Gmail account uploaded the child-pornography files and the IP addresses used to access this account. Rep., R.33-2,
PageID#169–71. Section A describes itself as an “Automatic Report,” id., PageID#169, and Miller does not
dispute the government’s claim that no Google employee manually entered information into this section.
Lindsey Olson, the NCMEC director who oversees the
CyberTipline program, added that NCMEC could not
change anything in this section. Olson Tr., R.105,
PageID#1088. In Section B, NCMEC’s systems automatically recorded the results of an automated search
for the location of the Google-provided IP addresses.
Rep., R.33-2, PageID#172–73. This section listed Fort
Mitchell as the location of the IP addresses, included
the same longitude and latitude coordinates for both
IP addresses, and identified Time Warner Cable as
the internet service provider. Id. In Section C, an
NCMEC analyst recorded the results of a manual
search for public information connected to the Gmail
account. Id., PageID#173–77. The analyst also attached a printout of a profile page with a picture of

41a
“Bill M” from the social-media website “Tagged.” Id.,
PageID#177.
Miller argues that the admission of this report violated the Confrontation Clause because it was testimonial and he did not have the opportunity to crossexamine the NCMEC analyst about the location information in Section B. Miller may well be correct that
the NCMEC analyst’s statements were testimonial,
but he is wrong in concluding that this fact gave him
a right to cross-examine the analyst about statements
that the analyst did not make.
Start with the analyst’s statements in Section C
describing the results of the analyst’s manual
searches. Were they testimonial? It might depend on
which of the Supreme Court’s varied “primary-purpose” tests we apply. As noted, sometimes the Court
has described a testimonial statement as one made
with the general “purpose of establishing or proving
some fact.” Melendez-Diaz, 557 U.S. at 310 (quoting
Crawford, 541 U.S. at 51). When the test is defined
this way, Miller has good grounds to conclude that the
analyst’s statements qualify. The analyst knew that a
child-pornography crime likely had been committed
and was searching public information to establish the
identity of the suspect who had used the incriminating
Gmail account. When the analyst noted that this
email was associated with a profile page on a socialmedia site, the analyst made that statement “for the
purpose of establishing” that very fact—that this
email address was connected to “Bill M.” on “Tagged.”
Id. And, considered objectively, the analyst well knew
that this information would be shared with investigating police. For essentially these reasons, the First Circuit held in a similar case that Yahoo reports sent to

42a
NCMEC and NCMEC reports sent to police both are
testimonial. See Cameron, 699 F.3d at 642–52.
Yet the Supreme Court has sometimes defined the
primary-purpose test more narrowly. It has noted that
a statement is testimonial if it is made with the specific “purpose of creating an out-of-court substitute for
trial testimony.” Clark, 576 U.S. at 250–51 (quoting
Bryant, 562 U.S. at 358). The analyst’s statements
might not satisfy this narrower definition. In two
ways, the statements also resemble the report containing a DNA profile that Williams found nontestimonial. The first way: Like the technicians in Williams, the analyst did not have a specific target in
mind when undertaking the searches. See 567 U.S. at
84–85 (plurality opinion). So the analyst might have
made the statements “not to accuse [Miller] or to create evidence for use at trial,” but “to catch” the atlarge person who had sent child pornography. Id. at
84. The second way: In terms of their solemnity, the
analyst’s statements are more like the informal report
in Williams than the sworn statements in MelendezDiaz or the signed certificate in Bullcoming. The analyst did not sign the report or certify its accuracy.
Rep., R.33-2, PageID#174–77. And the report disclaims its trustworthiness, noting that the “CyberTipline cannot confirm the accuracy of information
found in public records or whether the results are affiliated with any parties relating to this report.” Id.,
PageID#174. Justice Thomas’s separate interpretation thus might also suggest that the statements are
nontestimonial. See Williams, 567 U.S. at 111–12
(Thomas, J., concurring in the judgment).
All of this shows that the Supreme Court may one
day need to clarify its primary-purpose test. Ulti-

43a
mately, however, we need not resolve how this test applies to the NCMEC analyst’s own statements. That
is because Miller raises no objection to his inability to
cross-examine the analyst about the statements in
Section C. Rather, Miller objects that he could not
cross-examine the analyst about the information identifying the location of the Google-provided IP addresses in Section B. Miller’s claim that he had a right
to confront the analyst about Section B’s information
contains both a factual error and a legal one. Factually, the NCMEC analyst was not the “speaker” who
made the statements in Section B. As Olson testified,
NCMEC’s systems automatically generated this information once NCMEC received the report. Olson Tr.,
R.95, PageID#541–42.
Legally, the admissibility of this information turns
on the rules of evidence, not the Confrontation Clause.
The clause limits its reach to “witnesses.” U.S. Const.
amend. VI. The word “witness” has a common meaning covering “[o]ne” (i.e., a person) “who gives testimony.” Webster, supra, American Dictionary; see 2
T.E. Tomlins, The Law Dictionary 986 (1810). The
backdrop against which the clause was enacted also
confirms that it existed to prevent the use of a person’s
out-of-court statements to convict the defendant.
Crawford, 541 U.S. at 43–50. This text and history
show that the clause encompasses statements by people, not information by machines. A computer system
that generates data and inputs the data into a report
cannot be described as a “witness” that gives “testimony.” If the system were the witness, how would the
government make it available for cross-examination?
Would it have to be asked questions in computer code?

44a
Unsurprisingly, courts have agreed that the Confrontation Clause does not apply to information generated by machines. See United States v. Summers,
666 F.3d 192, 202–03 (4th Cir. 2011); United States v.
Lamons, 532 F.3d 1251, 1263–65 (11th Cir. 2008);
United States v. Moon, 512 F.3d 359, 362 (7th Cir.
2008). Relatedly, they have recognized that machinegenerated information does not qualify as “hearsay”
under the rules of evidence because the information is
not a statement by a person. See Fed. R. Evid. 801(a)–
(c); see, e.g., United States v. Channon, 881 F.3d 806,
810–11 (10th Cir. 2018); United States v. LizarragaTirado, 789 F.3d 1107, 1109–10 (9th Cir. 2015). This
precedent extends to the data produced by NCMEC’s
systems.
Perhaps Miller could respond that the computer
coder who developed the program that performs these
functions should be subject to cross-examination
about the program’s reliability. Bullcoming, for example, rejected the argument that the “machine” performing the blood-alcohol test was the “speaker” when
the analyst himself stated that he had performed the
test on the machine and described the results. See 564
U.S. at 659–61. And the Eighth Circuit has noted that
“[m]achine-generated records . . . can become hearsay
when developed with human input.” United States v.
Juhic, 954 F.3d 1084, 1089 (8th Cir. 2020). But neither Bullcoming nor Melendez-Diaz can be extended
as far as Miller needs. Both cases held only that an
analyst who used a machine to perform a test and who
made statements about the results must be subject to
cross-examination over the statements. MelendezDiaz disclaimed any broader notion that the Confrontation Clause reached everyone “whose testimony
may be relevant in establishing the . . . accuracy of the

45a
testing device” used in a case. 557 U.S. at 311 n.1. And
Bullcoming nowhere suggested that the clause gave
the defendant the right to cross-examine the creator
of the “gas chromatograph machine” (the machine
that tested the blood-alcohol level). 564 U.S. at 654.
The same logic applies here. The Confrontation
Clause does not give Miller a right to cross-examine
the individuals who created NCMEC’s systems. And
Miller identifies no other individuals like the analysts
in Bullcoming and Melendez-Diaz who performed specific tests and made statements about their results.
Here, the systems automatically performed the
“search” (or “test”) for the location of the IP addresses.
And they automatically recorded the results (or
“statements”) in Section B. This case involved no “human input” because the NCMEC analyst undertook
neither the search nor the recording. Juhic, 954 F.3d
at 1089. Miller thus had no Confrontation Clause
right to cross-examine the analyst about the information in Section B.
C
In response, Miller does not challenge the legal
point that data from computers are not “testimony”
from “witnesses.” Rather, he challenges the factual
point that NCMEC’s systems automatically imported
the location information into Section B. According to
Miller, the record leaves “entirely unclear” whether
the NCMEC analyst helped. Not so. As Miller’s support, he cites Olson’s background testimony that when
NCMEC receives a report, “the analysts may add additional value to” it and “may review the information
that’s been provided and try to locate or provide a location.” Olson Tr., R.105, PageID#1080. Yet Olson
clarified that the analysts historically had to search

46a
for the geographic area of IP addresses, but that Section B was “basically automating” “a lot of those
things that [analysts] used to do” manually. Id.,
PageID#1092. She went on: “[T]he system is able to
take the IP address, [and] use publicly available tools
to geo locate the IP address.” Id., PageID#1093. Another NCMEC witness at an earlier stage of the case
confirmed that “NCMEC systems performed a publicly-available WhoIs lookup related to the [two] IP
addresses reported by Google.” Shehan Decl., R.33-6,
PageID#196. Section B itself shows that it contained
automated information. The report’s table of contents
describes “Section B” as “Automated Information
Added by NCMEC Systems.” Rep., R.33-2,
PageID#168, 172. Section B then notes: “The information found in Section B of this CyberTipline Report
has been automatically generated by NCMEC Systems.” Id., PageID#172. The record is clear: NCMEC’s
systems automatically produced the information
about which Miller complains.
That this information was automated dooms Miller’s reliance on the First Circuit’s decision in Cameron. As noted, Cameron held that statements in reports that Yahoo provided to NCMEC and that
NCMEC provided to the police were testimonial. 699
F.3d at 642–52. But Cameron made clear that the Yahoo reports “were made by a person with knowledge of
their contents”; they were not made by a computer
system. Id. at 642 (emphasis added). And Cameron
made clear that an “NCMEC employee” had prepared
the CyberTipline Reports at issue. Id. at 651.
That this information was automated also dooms
Miller’s claimed prejudice from the lack of cross-examination. He argues that he was harmed by his inability to cross-examine the analyst about the information

47a
in Section B because some of this information may
have been exculpatory. Specifically, Miller’s counsel
used the identified longitude and latitude coordinates
to do his own manual “geolocation,” and counsel’s research allegedly revealed that the coordinates pinpointed to a location other than Miller’s home. Appellant Br. 26 & Ex. A. Miller argues that the analyst’s
failure to testify barred him from engaging in any inquiry on this critical subject. Yet again, the analyst
did not input these coordinates into Section B, so Miller had no Confrontation Clause right to cross-examine the analyst about statements the analyst did not
make. And nothing prevented Miller from cross-examining NCMEC’s director (Olson) about the accuracy of
its systems or how those systems chose these coordinates. The district court indicated that it would have
allowed Miller’s counsel to pursue this line of questioning with Olson. Tr., R.97, PageID#902.
Miller’s counsel decided against this cross-examination not because the analyst failed to testify but for
a strategic reason: Olson did not mention the coordinates or suggest that they identified Miller’s home. Id.
Yet the government unfairly undermined this strategy, Miller rightly notes, when its counsel argued during closing that the longitude and latitude coordinates
had been “[t]he defendant’s house.” Id., PageID#891.
The government concedes that this statement had no
basis in evidence. But the Confrontation Clause does
not regulate an improper closing argument. That is
the domain of the Due Process Clause (or our general
supervisory powers). See Donnelly v. DeChristoforo,
416 U.S. 637, 642–45 (1974). And Miller asserted no
due-process or prosecutorial-misconduct challenge to
the government’s argument until his reply brief. That

48a
came too late. See Island Creek Coal Co. v. Wilkerson,
910 F.3d 254, 256 (6th Cir. 2018).
IV. Sufficiency of the Evidence
Miller ends with the claim that the government
presented insufficient evidence to convict him. To succeed on this claim, Miller must show that no “rational
trier of fact could have found the essential elements of
the crime beyond a reasonable doubt.” United States
v. Potter, 927 F.3d 446, 453 (6th Cir. 2019) (citation
omitted). Miller does not dispute that a rational jury
could have found that someone committed the essential elements of the charged child-pornography offenses beyond a reasonable doubt. He asserts only
that no rational jury could have found that he committed those offenses given the other evidence implicating his brother—Fred Miller.
This argument misunderstands our standard of review. We readily agree that Miller presented some evidence pointing to his brother Fred. A few emails sent
to the Gmail account, for example, were addressed to
Fred about a cellphone rebate, and Fred visited Miller’s home once a week or so. But simply because another jury might have harbored doubt based on this
evidence does not allow us to overturn the jury’s verdict that Miller was the guilty party. On a sufficiencyof-the-evidence challenge, we consider only whether
“the government’s case was so lacking that it should
not have even been submitted to the jury.” Musacchio
v. United States, 136 S. Ct. 709, 715 (2016) (citation
omitted). That “limited review” bars us from reweighing the evidence or deciding for ourselves whether
Miller or the government put on the more convincing
case. United States v. Maya, 966 F.3d 493, 499 (6th
Cir. 2020) (quoting Musacchio, 136 S. Ct. at 715). We

49a
ask merely whether Miller’s jury behaved irrationally
in concluding beyond a reasonable doubt that he rather than Fred committed these crimes, drawing all
reasonable inferences in the government’s favor. See
United States v. Braswell, 704 F. App’x 528, 539–40
(6th Cir. 2017).
The government more than met its burden under
these rules. Substantial evidence pointed to Miller rather than Fred as the person who committed the childpornography offenses. Consider the emails. Google’s
records listed the subscriber for the Gmail account as
“Bill Miller.” Many emails and messages sent from
this account also propositioned women using the same
story. A person named “Bill” would, among other
things, allege that his wife “Tania” had died (Tania is
the name of Miller’s wife), and would send personal
photos of Miller (not his brother). This account was
also connected to a “Tagged” social-media profile that
included Miller’s picture. And the IP address for the
July 9 email matched a Time Warner Cable subscription from Miller’s house, not Fred’s.
Next consider the external hard drive with the
child-pornography files. It was found at Miller’s
house, not Fred’s. In an interview with Detective
Schihl, Miller admitted that he owned the hard drive
and that it contained child pornography (although he
claimed that it had been on the drive when he bought
it a year earlier). That hard drive, which had child
pornography neatly catalogued in file folders with
names like “incest” or “pre-teen,” contained a file
folder named “me” with pictures of Miller. And it had
Skype messages asking for child pornography using
the display name “Bill Miller.” A forensic examination
also revealed that the child-pornography folders were

50a
created on the hard drive just a week before the July
9 email, not a year before as Miller had claimed.
Against this evidence, Miller cites United States v.
Lowe, 795 F.3d 519 (6th Cir. 2015). There, the government learned that an IP address at the home of the
defendant, James Lowe, was sharing child pornography over a peer-to-peer network. Id. at 520. Lowe lived
at this home with his wife and an adopted child. Id.
The police searched the home and found a laptop that
contained substantial child pornography. Id. at 521.
After a jury convicted Lowe of various child-pornography offenses, we held that the evidence was insufficient to prove that Lowe had knowingly downloaded
the child-pornography onto the laptop. Id. at 523. We
relied on the fact that Lowe “shared his home with two
other people, both of whom could access” the laptop
and the peer-to-peer file-sharing program without entering passwords. Id. Critically, no circumstantial evidence—for example, the laptop’s browser history—
suggested that it was Lowe rather than the others
who had used this laptop to download child pornography. Id. at 523–24.
“Simply put, this case is not at all like . . . Lowe.”
United States v. Niggemann, 881 F.3d 976, 981 (7th
Cir. 2018). The circumstantial evidence here, unlike
the circumstantial evidence there, sufficed for a rational jury to exclude Fred beyond a reasonable doubt.
See United States v. Clingman, 521 F. App’x 386, 395–
96 (6th Cir. 2013). In other cases rejecting sufficiency
challenges like Miller’s, courts have pointed to such
circumstantial evidence as the fact that the incriminating account (like the Gmail account) was registered to the defendant. See Niggemann, 881 F.3d at
980. These cases have also pointed to the fact that a

51a
profile page of a relevant account included the defendant’s picture (like the “Tagged” account) or the fact
that the emails sent from a relevant account included
“identifying photographs” and used the defendant’s
name (like many of the emails from the Gmail account). See United States v. Woerner, 709 F.3d 527,
536–37 (5th Cir. 2013); see also United States v. Farnum, 811 F. App’x 18, 20 (2d Cir. 2020) (order). And
these cases have pointed to the defendant’s own statements that he possessed the child pornography (like
the statements that Miller made to Detective Schihl).
Woerner, 709 F.3d at 537.
We affirm.

52a
APPENDIX B
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF KENTUCKY
NORTHER DIVISION
AT COVINGTON
CRIMINAL ACTION NO. 16-47-DLB-CJS
UNITED STATES OF AMERICA
vs.

PLAINTIFF

MEMORANDUM ORDER ADOPTING
REPORT AND RECOMMENDATION

WILLIAM MILLER

DEFENDANT

**************
I. Introduction
This matter concerns the role of electronic service
providers (ESPs) in identifying and reporting images
of child pornography sent using their services and the
constitutionality of law enforcement’s subsequent review of those images. Defendant’s Motion to Suppress
two images of apparent child pornography attached to
an email in his Google account is before the Court on
the Report and Recommendation (R&R) of Magistrate
Judge Candace J. Smith, who recommends that the
Court deny the Motion. (Doc. # 41). Defendant has
filed objections to the R&R (Doc. # 44), and the R&R
and objections are now ripe for the Court’s review. For
the reasons that follow, the objections are overruled,
and the motion to suppress is denied.
II. Factual Background
On July 9, 2015, someone using the Google email
(Gmail) account miller694u@gmail.com uploaded two
images as attachments to an email. (Doc. # 33-2 at 3-

53a
4). Google’s product abuse detection system recognized those images as apparent child pornography using its proprietary “hashing” technology. (Doc. # 33-1
at ¶¶ 4-8, 10-13). Hashing is “the process of taking an
input data string [from an electronic image, for example] and using a mathematical function to generate a
(usually smaller) output string.” Richard P. Salgado,
Fourth Amendment Search and the Power of the Hash,
119 Harv. L. Rev. F. 38, 38-39 (2005). The output
string, called the hash value, is a “digital fingerprint”
shared by any duplicate of the input data string. (Doc.
# 33-1 at ¶ 4). Hashing is not unique to images of child
pornography–the process can be used to derive hash
values for many different kinds of data sets, “including the contents of a DVD, USB drive, or an entire
hard drive.” Salgado, supra, at 39. Importantly, hash
values are uniquely associated with the input data,
meaning that “if an unknown file has a hash value
identical to that of another known file, then you know
that the first file is the same as the second.” Id. at 3940; see also Doc. # 33-1 at ¶ 4.
Google has been using its proprietary hashing
technology since 2008 to identify “confirmed child sexual abuse images.” (Doc. # 33-1 at ¶¶ 4-8). After an
image of child sexual abuse is viewed “by at least one
Google employee,” the image “is given a digital fingerprint (‘hash’)” and is “added to [Google’s] repository of
hashes of apparent child pornography as defined in 18
U.S.C. § 2256.” Id. at ¶ 4. Although the company also
receives tips from users who “flag suspicious content,”
Google confirms that “[n]o hash is added to [its] repository without the corresponding image first having
been visually confirmed by a Google employee to be
apparent child pornography.” Id. at ¶ 5.

54a
When Google “encounters a hash that matches a
hash of a known child sexual abuse image,” it does one
of two things. Id. at ¶ 5. In some cases, Google does
not view the image again, but instead automatically
reports the user to the National Center for Missing
and Exploited Children (NCMEC), a non-profit organization authorized by Congress to “operate a cyber tipline to provide [ESPs] an effective means of reporting
. . . child pornography.” Id.; 42 U.S.C. § 5773(b)(1)(P).
“In other cases, Google undertakes a manual, human
review, to confirm that the image contains apparent
child pornography before reporting it to NCMEC.” Id.
Google is required by law to report apparent child pornography to NCMEC through the CyberTipline when
it becomes aware of it. 18 U.S.C. § 2258A.
In this case, when Google’s product abuse detection system identified two images in miller694u@gmail.com’s email account as having hash
values matching hash values contained in Google’s repository of apparent child pornography, Google “submitted an ‘automatic report’ to NCMEC” in compliance with its reporting obligations. (Doc. # 41 at 2 n.2).
A Google employee did not re-view the images or the
content of the email before submitting the report to
NCMEC. (Doc. # 33-1 at ¶ 11). However, Google did
provide NCMEC with “the email address used, the IP
address associated with the email in question, classification of the images [‘A1’ under the industry classification system, meaning the image contained a depiction of a prepubescent minor engaged in a sexual act],
the file names listed with the images and the two uploaded image files.” (Doc. # 41 at 3).
Upon receiving the images, NCMEC’s staff “did
not open or view the two uploaded files contained in
the report.” Id. Instead, NCMEC “located publicly

55a
available social network profiles” associated with the
email account, verified the IP address reported by
Google, and learned it to be associated with a Time
Warner Cable account having a potential geographic
location of Fort Mitchell, Kentucky.” Id. That information was sent to the Kentucky State Police and the
Kenton County Police Department. Id.
Detective Aaron Schihl of the KCPD received
NCMEC’s CyberTipline report on August 13, 2015. Id.
at 4. “Detective Schihl opened the attachments and
viewed the images, which he confirmed to be child pornography.” Id. He sought a grand jury subpoena for
the subscriber information for the Time Warner account and then sought and obtained a search warrant
for the contents of the miller694u@gmail.com account.
Id. Detective Schihl then obtained search warrants for
Defendant’s home and the electronic devices seized
from his home, which yielded additional evidence of
“receipt, possession, and distribution of child pornography.” Id.
Now, Defendant seeks to suppress all evidence obtained by Detective Schihl, arguing that both Google’s
initial search and Detective Schihl’s subsequent
search violated the Fourth Amendment. In her R&R,
Magistrate Judge Smith concluded that Google’s initial review of the files did not implicate the Fourth
Amendment because Google is a private actor, not a
government agent. She also concluded that Detective
Schihl’s actions in viewing the images did not implicate the Fourth Amendment because his actions did
not exceed the scope of the prior private search by
Google.
In his objections, which the Court reviews de novo,
Defendant makes three specific arguments. First, he

56a
argues that Google is a government actor because of
its “close relationship and collaborative crime fighting
efforts” with NCMEC, which the R&R assumes without deciding is a government actor. (Doc. # 44 at 2). As
a result, Defendant argues, the fruits of Google’s warrantless search should be suppressed. Second, Defendant argues that, even if Google is not a government actor, Detective Schihl’s subsequent review of
the images exceeded Google’s private search, meaning
that the detective violated the Fourth Amendment because Defendant had a reasonable interest in the privacy of his email attachments. Finally, Defendant argues that Detective Schihl’s actions were a search pursuant to traditional trespass doctrine because the
email attachments were sealed virtual containers.
For the reasons set forth herein, the Court finds
that Defendant’s arguments are unavailing, overrules his objections, and adopts Magistrate Judge
Smith’s R&R as the Opinion of the Court.
III.Analysis
A. Google is not a government actor.
Defendant’s first objection is to Magistrate Judge
Smith’s conclusion that Google is not a government
actor. (Doc. # 44 at 2-4). Whether Google is a government actor is significant because the Fourth Amendment protects individuals from “unreasonable
searches and seizures” by the government, not private
entities. U.S. Const. amend. IV. Indeed, the Fourth
Amendment “is wholly inapplicable” to searches and
seizures by “a private individual not acting as an
agent of the Government or with the participation or
knowledge of any governmental official.” United
States v. Jacobsen, 466 U.S. 109, 113-14 (1984) (internal quotation marks omitted).

57a
The Sixth Circuit uses a two-part test to determine
whether a private entity is a government agent for the
purposes of the Fourth Amendment. “In the context of
a search, the defendant must demonstrate two facts:
(1) Law enforcement ‘instigated, encouraged or participated in the search’ and (2) the individual ‘engaged
in the search with the intent of assisting the police in
their investigative efforts.’” United States v. Hardin,
539 F.3d 404, 419 (6th Cir. 2008) (quoting United
States v. Lambert, 771 F.2d 83, 89 (6th Cir. 1985)). If
the defendant cannot show both of these facts, the private actor is not a government agent. Here, Magistrate Judge Smith correctly concluded that Google is
not a government agent when it voluntarily scans
email attachments for apparent child pornography
and sends reports to NCMEC.
The Sixth Circuit has not yet determined whether
NCMEC itself is a government agent. (Doc. # 41 at 6).
The Tenth Circuit recently concluded that it is, which
means that NCMEC’s actions implicate the Fourth
Amendment to the extent they constitute “searches”
or “seizures.” United States v. Ackerman, 831 F.2d
1292, 1294-1304 (10th Cir. 2016 (Gorsuch, J.) (concluding that NCMEC is a government entity and a
government agent). Magistrate Judge Smith assumed
without deciding that NCMEC acted as a government
agent in this case (Doc. # 41 at 6), and the Court sees
no reason to disturb that assumption. However, that
assumption does not extend to ESPs (like Google) that
voluntarily scan emails for child pornography and report apparent child pornography to NCMEC. 1 In fact,
In Ackerman, the Tenth Circuit concluded that NCMEC exceeded the scope of the ESP’s search in any event, so the status
of the ESP was not at issue in that case. Ackerman, 831 F.2d at
1306-07.

1

58a
every court to have addressed the question (including
the First, Fourth, and Eighth Circuits) has determined that, in situations like this one, the ESP is not
a government agent. (Doc. # 41 at 6-8 (collecting
cases)).
Defendant argues that Google’s “close and collaborative relationship” with NCMEC, a government
agent, makes Google a government agent too. (Doc. #
44 at 2-3). According to Defendant, a statutory scheme
that involves “mandatory reporting requirements and
penalties for failure to report” and a “requirement to
preserve evidence” ties Google to NCMEC and makes
it a government agent for purposes of the Fourth
Amendment. (Doc. # 41 at 2); 18 U.S.C. §§ 2258A(a),
(e), (f).
The statutory reporting requirements are not sufficient to transform Google into a government agent
under this test. The Supreme Court’s leading Fourth
Amendment agency case, Skinner v. Railway Labor
Executives’ Ass’n, 489 U.S. 602 (1989), held that a regulatory scheme evidenced the government’s “encouragement, endorsement, and participation” of a search
when it “removed all legal barriers” for breath, blood,
and urine testing of railroad operators, “mandated
that the railroads not bargain away the authority to
perform [such] tests,” required employers to remove
employees who refused to submit to the tests from service, and conferred the right to receive the results of
the test on the government. Skinner, 489 U.S. at 61516. The Court held that the regulatory scheme rendered otherwise private railroads agents of the government because it belied the idea that “tests conducted by private railroads . . . will be primarily the
result of private initiative.” Id.

59a
Here, by contrast, there is ample evidence that
Google’s scanning is still the result of its private initiative, not government pressure. Unlike the regulations at issue in Skinner, the statutory scheme for reporting child pornography does not purport to authorize or remove “legal barriers” to ESP email scanning,
or “prescribe consequences for [an ESP’s] users should
they refuse to submit” to the scanning. United States
v. Stevenson, 727 F.3d 826, 829-30 (8th Cir. 2013). In
fact, the statute explicitly disclaims a scanning or
monitoring requirement, 18 U.S.C. § 2258A(f), and
mandates only reporting of apparent images of child
pornography that the ESPs are aware of, § 2258A(a).
The penalties for failure to report do not compel ESPs
to monitor their subscribers as a practical matter, either–in fact, “the converse is just as likely to be true,”
because ESPs “might just as well take steps to avoid
discovering reportable information” to avoid penalties
for failure to report. United States v. Richardson, 607
F.3d 357, 367 (4th Cir. 2010). Unlike the regulatory
scheme at issue in Skinner, nothing prevents the
ESPs from doing just that, and there is no evidence
that NCMEC imposes obligations on Google that the
statutory scheme does not. As a result, the statutory
reporting requirements do not transform Google into
a government agent.
Defendant also argues that Google and NCMEC’s
collaborative relationship “supports a finding that
NCMEC has intimate knowledge of Google’s searching activities, and encourages them.” (Doc. # 44 at 3).
Defendant explains that Google and NCMEC share
hash values (though he acknowledges that they did
not do so in this case, id. at 3 n.3), that NCMEC gives
Google awards for its collaboration, and that Google
makes public statements about its collaboration with

60a
and support for NCMEC. Id. at 3. But acknowledgment of Google’s voluntary activities is not the same
as government participation in or encouragement of
the search activities themselves. Whether Google has
made itself a “willful participant” (Doc. # 27 at 6) in
NCMEC’s child-protective policies is not dispositive
where, as here, Defendant has not met the second
prong of the test–that Google’s intention in searching
is to provide the government with evidence for its
criminal investigations.
Defendant failed to show that Google monitors image attachments for apparent child pornography with
the intent of assisting police investigative efforts. Instead, Google presented evidence that it scans email
attachments and uses its proprietary hashing technology for its own business purposes. Google explains
that it “independently and voluntarily take[s] steps to
monitor and safeguard [its] platform” because if it “is
associated with being a haven for abusive content and
conduct, users will stop using [Google’s] services.”
(Doc. # 33-1 at ¶ 3). In particular, “[r]idding [its] products and services of child abuse images is critically important to protecting [Google’s] users, product, brand,
and business interests.” Id.
Other than reflecting a general societal consensus
that images of child pornography are harmful,
Google’s business interests are “entirely independent
of the government’s intent to collect evidence for use
in a criminal prosecution.” United States v. Bowers,
594 F.3d 522, 526 (6th Cir. 2010) (internal quotation
marks omitted). Even without a statutory obligation
to report its findings to NCMEC, it seems likely that
Google would screen its platform for images of child
pornography because doing so is good business practice.

61a
For all those reasons, the Court agrees with Magistrate Judge Smith that the evidence does not compel
a finding that the government participates in Google’s
activities to such a degree that Google’s search is the
government’s search. Defendant’s objection is overruled.
B. Detective Schihl’s actions did not exceed
Google’s private search.
Because Google’s actions are not attributable to
the government, Detective Schihl’s subsequent review of the images will not violate the Fourth
Amendment if that review does not exceed the scope
of the prior private search. Jacobsen, 466 U.S. at
115. “Under the private search doctrine, the critical
measures of whether a governmental search exceeds
the scope of the private search that preceded it are
how much information the government stands to
gain when it re-examines the evidence and, relatedly, how certain it is regarding what it will find.”
United States v. Lichtenberger, 786 F.3d 478, 485-86
(6th Cir. 2015) (citing Jacobsen, 466 U.S. at 119-20).
With respect to child pornography, the Sixth Circuit
has held a government search permissible on the
grounds that “the officers in question had near-certainty regarding what they would find and little
chance to see much other than contraband,” “learned
nothing that had not previously been learned during
the private search,” and “infringed no legitimate expectation of privacy.” Id. (internal quotation marks
omitted).

62a
1. This case is not like Walter because the
images have been previously viewed
by Google and the hash value is not a
mere label.
Defendant’s core objection is that Detective
Schihl’s actions are broader in scope and different in
type from the actions taken by Google because Detective Schihl opened Defendant’s email attachments to
view the images, while Google merely looked at the
hash values. (Doc. # 44 at 6). That distinction, Defendant argues, makes Walter v. United States, 447 U.S.
649 (1980) the proper analog to this case, and Defendant cites United States v. Keith, 980 F. Supp. 2d 33
(D. Mass. 2013), in support.
The Court disagrees. Defendant’s argument is
based on two flawed premises contradicted by the evidence and case law. The first flawed premise is that
the images attached to his emails are akin to a sealed
container that has never been opened. The second
flawed premise is that the hash values associated
with those images are analogous to the labels in Walter.
In Walter, the Supreme Court found a Fourth
Amendment violation where private individuals mistakenly received shipments of films in boxes with labels that alluded to the obscene content of the films.
Walter, 447 U.S. at 651. One individual held the film
up to the light, but could not see anything. Id. at 652.
None of the private individuals watched the films. Id.
Instead, they called the FBI, who watched the films
without a warrant. Id. Two justices wrote that
watching the film exceeded the scope of the prior
search, two justices concurred in the result but wrote
that watching the film would exceed the scope of the

63a
prior search even if the private individuals had held
their own private screening because the private
screening would not have exposed the film to plain
view, and one justice concurred in the judgment
without discussion. Walter, 447 U.S. at 658-62. Even
the dissenting justices agreed that “[t]he additional
invasions of respondents’ privacy by the Government
agent must be tested by the degree to which they exceeded the scope of the private search.” Jacobsen, 466
U.S. at 115.
Defendant’s argument that the images in this
case are akin to the films in Walter that were not
viewed in the private search is inconsistent with the
evidence. Google’s practice is to register hash values
for images that Google has already physically
viewed. (Doc. # 33-1 at ¶¶ 4-5). There is no evidence
that Google departed from that practice in this case
(and Defendant has abandoned his argument to the
contrary (Doc. # 44 at 2 n.1)). After viewing the images at issue here, Google used its hashing technology and included the hash value in its registry. When
Defendant attached the images to his email, Google
noted a match in the hash values, conveyed that information to NCMEC, and NCMEC passed the information and the images along to Detective Schihl.
(Doc. # 33-1 at ¶¶ 11). The argument that Detective
Schihl, like the FBI agents in Walter, viewed the images when the private searchers did not is therefore
not supported by the facts. 2

To the extent that Defendant’s argument relies on a distinction
between the file previously viewed by Google and the file Defendant attached to his email, that is a distinction without a difference. The two files were matched by hash values—a digital
fingerprint. (Doc. # 33-1 at ¶ 4). Defendant does not challenge

2

64a
Contrary to Defendant’s suggestion, the hash
value is not a label like what was written on the
boxes in Walter. A hash value, unlike a label, has no
inherent meaning–it gains meaning only when it
matches with a hash value in the child pornography
repository and therefore reminds Google that it has
seen this image before. Indeed, a closer analog to the
Walter case would be if Google had flagged the images in Defendant’s email as apparent child pornography merely because of their file names, without
having ever looked at the images to verify their content. If that were the situation, Detective Schihl’s
subsequent examination of the files would present a
different, and much more difficult, question of scope.
For the same reasons outlined above, the Court
departs from the district court’s analysis in United
States v. Keith, 980 F. Supp. 2d 33 (D. Mass. 2013).
That court found that “matching the hash value of a
file to a stored hash value is not the virtual equivalent of viewing the contents of the file.” Id. at 43.
“What the match says is that the two files are identical; it does not itself convey any information about
the contents of the file. It does say that the suspect
file is identical to a file that someone, sometime,
identified as containing child pornography, but the
provenance of that designation is unknown.” Id. (emphasis added). Based on the evidence before the
Keith Court, it was not clear who performed the initial private search—the court noted it was “possible
that the hash value of a suspect file was initially generated by another provider and then shared with
AOL.” Id. at 37 n.2. The court also concluded from
the reliability of hashing, and as the R&R notes, “it appears well
established that it is, in fact, reliable.” (See Doc. # 41 at 21).

65a
testimony at the evidentiary hearing that it is “indisputable that AOL forwarded the suspect file only because its hash value matched a stored hash value,
not because some AOL employee had opened the file
and viewed the contents.” Id. at 42- 43; see also id. at
37 (“[n]othing is known about how the file came to be
originally hashed and added to the flat file database,
except that it was AOL’s practice to hash and add to
the database either the hash value of any file that
was identified by one of its graphic file analysts as
containing child pornography or a hash value similarly generated by a different ESP or ISP and shared
with AOL”).
Here, by contrast, the evidence indicates that
Google itself had already viewed the images and
identified them as apparent child pornography to Detective Schihl before he ever conducted his search.
(See Doc. # 33-1 at ¶¶ 4-5 (“[n]o hash is added to
[Google’s] repository without the corresponding image first having been visually confirmed by a Google
employee to be apparent child pornography”)). Defendant’s efforts to analogize this case with searches
violative of the Fourth Amendment in Walter and
Keith fail because this case is distinguishable on a
key point—the evidence shows that Google previously viewed the images at issue and tagged them as
apparent child pornography.
Detective Schihl also avoids the pitfall the Tenth
Circuit identified in Ackerman, where NCMEC (acting as a government agent) viewed images that the
ESP had not even hashed. As Magistrate Judge
Smith explains, in Ackerman, AOL’s email filter
identified one image out of four attachments to an
email that matched the hash value of an image AOL
had previously deemed to be child pornography.

66a
Ackerman, 831 F.3d at 1294. Like Google did here,
AOL sent a report to NCMEC. Id. But unlike here,
NCMEC viewed more than just the image matching
AOL’s hash values—it also viewed the contents of the
email and the other three attachments, which AOL
had never examined. Id. The Ackerman Court determined that by “opening the email itself” and the three
additional attachments, NCMEC “exceeded rather
than repeated” AOL’s private search. Id. at 1306. The
Tenth Circuit did not need to address the constitutionality of the situation presented here, where the
government looks only at the material that had previously been examined. Id. at 1306.
2. Jacobsen and Bowers support the conclusion that Detective Schihl’s search
did not exceed the scope of Google’s.
Contrary to Defendant’s argument, the scope of
Detective Schihl’s search in this case is more like the
narrowly drawn searches that the Supreme Court
and Sixth Circuit upheld in Jacobsen and Bowers.
Jacobsen, the case that marks the origin of the private search doctrine, began with FedEx employees
examining the contents of a damaged package. Jacobsen, 466 U.S. at 111. Inside the cardboard container, they discovered a ten-inch tube made of duct
tape which, when the employees cut it open, revealed
four plastic bags filled with white powder. Id. FedEx
called the DEA and put the tube and its contents
back in the box. Id. The DEA agent inspected the
partially open container, removed the plastic bags,
and field-tested them for cocaine. Id. at 112. The Supreme Court held that the DEA agent’s inspection of
the plastic bags and testing of the powder remained
within the scope of FedEx’s prior search because

67a
“there was a virtual certainty that nothing else of significance was in the package and that a manual inspection of the tube and its contents would not tell
him anything more than he had already been told.”
Id. at 119. Moreover, the field test “could disclose
only one fact previously unknown to the agent—
whether or not a suspicious white powder was cocaine”—a fact in which the defendant had no legitimate expectation of privacy. Id. at 122-24.
The Sixth Circuit applied the logic of Jacobsen’s
private search doctrine to depictions of child pornography in Bowers. Bowers, 594 F.3d at 526. In that
case, a private search by the defendant’s housemate
uncovered a physical photo album that contained
child pornography. Bowers, 594 F. 3d at 524. The
housemate alerted the FBI, who later looked at the
same photo album and confirmed that it likely contained child pornography. Id. The Sixth Circuit held
that the FBI’s actions did not exceed the scope of the
housemate’s private search and affirmed the denial
of the motion to suppress because “the agents
‘learn[ed] nothing that had not previously been
learned during the private search’ and ‘infringed no
legitimate expectation of privacy.’” Id. at 526 (quoting Jacobsen, 466 U.S. at 119-20). See also United
States v. Richards, 301 F. App’x 480, 483 (6th Cir.
2008) (the “government’s confirmation of prior
knowledge learned by the private individuals does
not constitute exceeding the scope of a private
search” in a case where storage unit employee notified police of child pornography found in a suitcase in
defendant’s storage unit).
Defendant argues that the “virtual certainty” test
of Jacobsen does not apply unless there has been a
“previous search of the actual container in question.”

68a
(Doc. # 44 at 6). As explained above, Google’s practice
of only hashing files its employees have viewed indicates that Google did previously view the images attached to Defendant’s email. In this case, as in Bowers, a private party viewed the images, believed that
they were child pornography, and alerted the authorities, who then viewed the same images. The difference between Bowers and this case is that the images
here are made of pixels, not photo paper, and that
Google identified the images as ones it had previously
viewed by using hash values instead of human
memory. Despite the relation to legitimate and “extensive privacy interests at stake in . . . modern electronic device[s],” Lichtenberger, 786 F.3d at 485, those
differences do not require a different result in this
case because the “virtual certainty” standard is met.
In Lichtenberger, the Sixth Circuit applied Jacobsen to an officer’s search of a defendant’s laptop for
child pornography, holding that, in order for the government’s search to be within the scope of the earlier
private search, the government official “had to proceed with ‘virtual certainty’ that the ‘inspection of the
[laptop] and its contents would not tell [him] anything
more than he had already been told’” by the defendant’s girlfriend, the private searcher. Lichtenberger,
786 F.3d at 488. The court ruled that the officer did
not have “virtual certainty” that what he viewed
would be the same child pornography the girlfriend
reported because it was not at all clear that she
showed him the same images she had previously
looked at. There was “a very real possibility,” the court
concluded, that the detective “could have discovered
something else on Lichtenberger’s laptop that was private, legal, and unrelated to the allegations prompt-

69a
ing the search—precisely the sort of discovery the Jacobsen Court sought to avoid in articulating its beyond-the-scope test.” Id. at 488-49.
There is no such possibility here. As discussed
earlier, the digital fingerprints produced by hashing
provide “virtual certainty” that the images will be
the same as those seen on a prior search. And because Google’s CyberTip report “did not include any
email body text or header information associated
with the reported content” (Doc. # 33-1 at ¶ 10), or
any images that Google had not previously viewed,
Detective Schihl had “little chance to see much other
than contraband.” Lichtenberger, 786 F.3d at 486.
Compare with Ackerman, 831 F.3d at 1294 (NCMEC
viewed email content and three attachments that the
ESP had not viewed). That distinguishes this case
from ones involving laptops and cell phones where
privacy interests are high because of the large
amount of information on those devices. There was
no likelihood here, as there was in Lichtenberger or
similar cases, that the attachments would “contain
1) many kinds of data, 2) in vast amounts, and 3) corresponding to a long swath of time.” Lichtenberger,
786 F.3d at 488. The key question for the test under
Jacobsen is whether the government official “saw the
exact same images” the private searcher saw. Id. at
490. In this case, the evidence reveals that Detective
Schihl and Google saw the same images—no more
and no less.
Finally, Defendant argues that applying Jacobsen to find that Defendant’s Fourth Amendment
rights were not violated is a dramatic expanse of doctrine that allows “modern technology utilized by the
private party” to “frustrate a citizen’s reasonable expectation of privacy in the contents of a citizen’s

70a
sealed container.” (Doc. # 44 at 6-7). This is not so.
Google’s hash-value matching—in the words of the
R&R, its “virtual eye”—does not reveal anything
about an image that Google does not already know
from the regular eyes of its employees. Put another
way, hashing is not a futuristic substitute for a private search—it is merely a sophisticated way of confirming that Google already conducted a private
search. Google’s use of hash values has no more effect
on Defendant’s reasonable expectation of privacy
than Google’s initial private search does (and because Google is not a government agent, the Fourth
Amendment is “wholly inapplicable” to its searches,
even “unreasonable one[s],” Jacobsen, 446 U.S. at
113-14).
For all those reasons, Defendant’s objection that
Detective Schihl’s search exceeded the scope of
Google’s private search is overruled.
C. Traditional trespass analysis does not
apply.
Defendant’s last objection is that Detective
Schihl’s search “was illegal when viewed through the
lens of the traditional trespass test.” (Doc. # 44 at 78) (citing Ackerman, 831 F.3d at 1308 (citing United
States v. Jones, 565 U.S. 400 (2012))). Defendant also
argues that Google did not open the attachments,
which he refers to as “sealed virtual containers.” Id.
Once again, Defendant’s attempt to distinguish between the image uploaded to his email account and
the image Google previously viewed is unavailing—
these particular attachments are not “sealed virtual
containers” because the matching hash values indicate that Google has previously viewed them. Moreover, as Magistrate Judge Smith explains in the

71a
R&R, the “traditional trespass” test does not apply
when the government action is within the scope of a
previous private search, because the Fourth Amendment does not apply to private individuals. (Doc. # 41
at 26 n.10). Therefore, this objection is overruled.
IV.Conclusion
Upon de novo consideration of the R&R and the
objections thereto, the Court concludes that Magistrate Judge Smith’s factual findings are clearly supported by the record. The Court further agrees with
Magistrate Judge Smith’s analysis and recommended disposition of Defendant’s motion to suppress. Accordingly,
IT IS ORDERED as follows:
(1) Defendant’s objections to the Magistrate
Judge’s Report and Recommendation
are overruled;
(2) The Magistrate Judge’s factual findings are
adopted as the factual findings of
the Court;
(3) The Magistrate Judge’s analysis and conclusions of law are adopted as the Court’s conclusions of
law, as supplemented herein;
(4) Defendant’s Motion to Suppress evidence (Doc.
# 27) is denied; and
(5) The time period from January 31, 2017 through
the date of this Order, totaling 143 days, is deemed
excludable time from the Speedy Trial Act pursuant
to 18 U.S.C. § 3161(h)(1)(F).
This 23rd day of June, 2017.

72a
Signed By:
David L. Bunning DB
United States District Judge

73a
APPENDIX C
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF KENTUCKY
NORTHER DIVISION
COVINGTON
UNITED STATES OF
AMERICA,
Plaintiff,

Criminal Case No.
16-47-ART-CJS

v.
WILLIAM MILLER,
Defendant.

Report and
Recommendation

*** *** *** ***
This matter is before the Court on the Defendant’s
Motion to Suppress. (R. 27). The Government has
filed its Response, to which Defendant filed a Reply.
(R. 33; R.37). The Motions have been referred to the
undersigned for preparation of a Report and Recommendation pursuant to 28 U.S.C. § 636(b)(1)(B). (See
R. 6). While Defendant requested an evidentiary hearing in his Motion filing, he withdrew that request in
his Reply and instead requested the Court set the
matter for oral argument. (See R. 27, at 11; R. 37, at
1). The Court heard oral argument on the Motion (see
R. 38; R. 39), and the matter is now ripe for consideration. For the reasons set forth below, it will be recommended that Defendant’s Motion to Suppress be
denied.

74a
I. Factual Background
On July 9, 2015, an individual using Google email
(Gmail) account miller694u@gmail.com uploaded
two images of apparent child pornography to an
email, which may or may not have been sent. (R. 332, at 3-4). Google was alerted to these images
through use of its proprietary “hashing” technology.
(R. 33-1, at 1-2, 4-10 ¶¶ 4-8, 10-13). A representative
from Google explains:
4. . . . [S]ince 2008, Google has been using its
own proprietary hashing technology to tag
confirmed child sexual abuse images. Each
offending image, after it is viewed by at
least one Google employee, is given a digital
fingerprint (“hash”) that our computers can
automatically recognize and is added to our
repository of hashes of apparent child pornography as defined in 18 U.S.C. § 2256.
Comparing these hashes to hashes of content uploaded to our services allows us to
identify duplicate images of apparent child
pornography to prevent them from continuing to circulate on our products.
5. We also rely on users who flag suspicious
content they encounter so we can review it
and help expand our database of illegal images. No hash is added to our repository
without the corresponding image first having been visually confirmed by a Google employee to be apparent child pornography.
...
7. When Google’s product abuse detection system encounters a hash that matches a hash

75a
of a known child sexual abuse image, in
some cases Google automatically reports the
user to [the National Center for Missing and
Exploited Children] NCMEC without reviewing the image. In other cases, Google
undertakes a manual, human review, to
confirm that the image contains apparent
child pornography before reporting it to
NCMEC.
8. When Google discovers apparent child pornography, Google files a report with . . .
NCMEC in the form of a CyberTip. . . .
(R. 33-1, at 1 ¶¶ 4-8). 1
Here, the parties do not dispute that Google’s product abuse detection system hit on two images attached
to an email in Defendant’s Gmail account that
matched hash values in Google’s repository of hashes
of apparent child pornography. (R. 27, at 1-2; R. 33, at
1-3; R. 33-1, at 2, ¶¶ 10, 11; R. 37, at 2-3). In response,
Google submitted an “automatic report” to NCMEC–
which Google is required to do by law, via a CyberTipline report. 2 (R. 33-1, at 1-2 ¶¶ 7, 8, 10; R. 33-2, at 3).
In his Motion to Suppress Defendant stated he believed
NCMEC provided Google with the hash values to use in its
searching process. However, during oral argument counsel withdrew this statement, acknowledging the Affidavit of the Google
executive explained that was not the case in this circumstance.
(See R. 33-1, at ¶ 9).

1

2 Google’s Senior Manager of Law Enforcement and Information
Security stated that “[w]hen Google’s product abuse detection
system encounters a hash that matches a hash of a known child
sexual abuse image, in some cases Google automatically reports
the user to NCMEC without a manual re-review of the image. (R.
33-1, at 1-2, ¶ 7). Here, the report states it is an “automatic report.” (R. 33-2, at 3).

76a
Google’s employees did not manually view the content
of the email or the images prior to submitting the report to NCMEC. (R. 33-1, at ¶¶ 10-11). The CyberTipline report did not contain the content of the email or
header information, but did include the email address
used, the IP address associated with the email in
question, classification of the images, 3 the file names
listed with the images and the two uploaded image
files. (R. 33-1, at ¶¶ 10-11; R. 33-2, at 1-5; R. 33-6, at
4 ¶ 14). In addition, on or about the time it submitted
the CyberTipline report, Google disabled the associated Gmail account. (R. 33-1, at ¶¶ 10-11).
When NCMEC received the CyberTipline report,
its staff did not open or view the two uploaded files
contained in the report. (R. 33-6, at 4 ¶ 15). Instead,
a member of NCMEC’s staff queried publicly-available sources related to the “miller694u@gmail.com”
email address and located publicly-available social
network profiles associated with that account. (Id.).
NCMEC also verified the IP address reported by
Google and learned it appeared to be associated with
a Time Warner Cable account having a potential geographic location of Fort Mitchell, Kentucky. (Id. at ¶
16). NCMEC, either by automated processes or its
staff, provided the information in Sections B and C of
the CyberTipline report and specifically noted in the
report: “[p]lease be advised that NCMEC has not
opened or viewed any uploaded files submitted with
this report and has no information concerning the conThe CyberTipline report noted the images had been classified
as A1 under the industry classification system, which indicates
that the content of the associated image contained a depiction of
a prepubescent minor engaged in a sexual act. (R. 33-1, at 2 ¶ 10;
R. 33-2, at 4).
3

77a
tent of the uploaded files other than information provided in the report by the ESP [electronic service provider].” (Id. at ¶¶ 16-17; R. 33-2, at 8). NCMEC made
the CyberTipline report available to Kentucky State
Police and the Kenton County Police Department. (R.
33-6, at ¶¶ 16, 17).
On August 13, 2015, Detective Aaron Schihl of the
Kenton County Police Department received this
CyberTipline report from NCMEC. (R 33-3, at 1). Detective Schihl opened the attachments and viewed the
images, which he confirmed to be child pornography.
(Id. at 1-2). Detective Schihl requested a grand jury
subpoena for the subscriber information for the Time
Warner Cable account associated with the IP address
provided in the report. (Id. at 1). Time Warner responded to the request, identifying Tania Miller of
2271 Mercury Street, Fort Mitchell, Kentucky, 41017
as the subscriber for the requested IP address and provided contact information for the account. (Id.). Detective Schihl sought and obtained a search warrant
for the contents of the miller694u@gmail.com account.
(R. 33-3). In his Affidavit, Detective Schihl states he
received a CyberTipline report, he provides the information learned regarding the IP and email addresses,
and he describes the images based on his review of
them. (R. 33-3, at 1-2). After review of the contents of
the Gmail account, Detective Schihl obtained a search
warrant for Defendant’s home, followed by a search
warrant for the electronic devices seized from Defendant’s home. (R. 33-4; R. 33-5). The fruits of these three
searches yielded additional evidence of the receipt,
possession, and distribution of child pornography.
(See R. 33-3; R. 33-4; R. 33-5). Defendant seeks to suppress all evidence obtained in this case.

78a
II. Analysis
The Fourth Amendment provides in relevant part
that “[t]he right of the people to be secure in their persons, houses, papers, and effects, against unreasonable searches and seizures, shall not be violated.” U.S.
Const. amend. IV. Fourth Amendment protections attach when a “search” occurs. A “search” occurs when
the government infringes on an expectation of privacy
that society is prepared to consider reasonable, see
United States v. Jacobsen, 466 U.S. 109, 115 (1984),
or where the government physically intrudes on a
constitutionally protected area for the purpose of obtaining information, see United States v. Jones, 565
U.S. 400, 407-08 (2012). Fourth Amendment protections do not apply to a private search. Jacobsen, 466
U.S. at 113. Nor do they apply if the government
merely replicates a prior private search. Id. at 115.
In the pending Motion, Defendant challenges two
warrantless searches as having violated his Fourth
Amendment rights against unreasonable searches
and seizures. He first contends that Google’s use of its
hashing technology to search his email account without a warrant constituted a search implicating the
Fourth Amendment because Google acted as a state
actor in conducting the search. Defendant also challenges Detective Schihl’s actions of opening and viewing the attachments to his email, which he argues no
one had previously opened and viewed, without first
obtaining a warrant. For the reasons discussed below,
Defendant’s challenges to these searches fail.
A. Google is not a government actor
Defendant challenges Google’s conduct of searching his email account for child pornography by utilizing hashing technology and then seizing two images

79a
attached to an unsent email. (R. 27, at 3-7). The Sixth
Circuit has held that a person has a reasonable expectation of privacy in the content of his emails. United
States v. Warshak, 631 F.3d 266, 284 (6th Cir. 2010).
The Fourth Amendment, however, applies only to government action and does not constrain private parties
“not acting as an agent of the Government or with the
participation or knowledge of any governmental official.” Jacobsen, 466 U.S. at 113 (quoting Walter v.
United States, 447 U.S. 649, 662 (1980) (Blackmun, J.,
dissenting)). Defendant argues that because of
Google’s nexus with NCMEC, an entity Defendant argues qualifies as a state actor, Google is also a state
actor for purposes of the Fourth Amendment. (R. 27,
at 5-6).
Defendant acknowledges that the Sixth Circuit
has yet to consider whether NCMEC is a state actor.
However, he notes that the Tenth Circuit has recently
considered the issue and found that it is. See United
States v. Ackerman, 831 F.3d 1292, 1296 (10th Cir.
2016) (finding NCMEC to be a governmental entity
and an agent of the government). For purposes of this
Motion, the Court will assume without deciding that
NCMEC is a governmental entity or an agent of the
Government such that the Fourth Amendment applies to its searches.
In his Motion, Defendant argues Google’s conduct
of searching his email account implicates the Fourth
Amendment because there is a sufficiently close nexus
between NCMEC and Google’s search such that
Google’s conduct is fairly treated as that of NCMEC.
(R. 27, at 5-6) (citing Lansing v. City of Memphis, 202
F.3d 821, 830 (6th Cir. 2000)). He also argues that
Google is a government actor because it is a willful

80a
participant in NCMEC’s policy of searching for and
finding child pornography. (Id.).
To support his argument, Defendant points to statutory reporting requirements that require Google to
report child pornography to NCMEC and preserve the
suspected file or be subject to significant monetary
penalties for failing to adhere to the reporting requirements. (R. 27, at 6) (citing 18 U.S.C. § 2258A). Defendant also argues that while Google is not statutorily required to search its products for child pornography, it
presumably does so because of its relationship with
NCMEC. Specifically, Defendant explains that Google
and NCMEC are “entwined based on shared governmental policies and their combined actions reflect a
joint effort and commitment to work together” to combat child pornography. (Id. at 7).
As the parties acknowledge, the Sixth Circuit has
not yet addressed the issue of whether ESPs, such as
Google, act as an agent of the government when they
scan files on their network for child pornography and,
pursuant to the reporting requirement contained in
18 U.S.C. § 2258A, report findings of apparent child
pornography to NCMEC. However, the cases that
have considered the issue have uniformly held that
such conduct does not transform an ESP into a government actor. See United States v. Stevenson, 727
F.3d 826, 831 (8th Cir. 2013) (“A reporting requirement, standing alone, does not transform an [i]nternet
service provider into a government agent whenever it
chooses to scan files sent on its network for child pornography.”); United States v. Cameron, 699 F.3d 621,
638 (1st Cir. 2012) (finding Yahoo! was not acting as
an agent of the government in conducting a search of
defendant’s account and reporting its findings to

81a
NCMEC, stating “if Yahoo! chose to implement a policy of searching for child pornography, it presumably
did so for its own interests.”); United States v. Richardson, 607 F.3d 357, 366 (4th Cir. 2010) (holding that
AOL’s scanning of email communications for child
pornography and reporting discoveries to NCMEC did
not trigger the Fourth Amendment’s warrant requirement because no law enforcement officer or agency
asked the provider to search or scan the defendant’s
emails); United States v. Stratton, No. 15-40084, 2017
WL 169041, at **4-5 (D. Kan. Jan. 7, 2017) (finding
Sony was not acting as government agent when it
monitored its users’ accounts for child pornography
because it was acting to protect its own interest in
providing a safe online gaming community); United
States v. Miller, No. 8:15-cr-172, 2015 WL 5824024, at
*4 (D. Neb. Oct. 6, 2015) (“Google did not become a
state actor by providing the reports required by law.”);
United States v. Keith, 980 F. Supp. 2d 33, 44 (D.
Mass. 2013) (finding AOL, motivated by its own
wholly private interests in monitoring emails for child
pornography, was not acting as a government agent in
searching its network for child pornography and reporting any findings to NCMEC). In fact, defense
counsel stated during oral argument that his research
revealed no authority, either in this circuit or elsewhere, where an ESP has been held to be a government actor in a similar circumstance.
While Defendant argues Google is a state actor because of its nexus relationship to NCMEC, the Sixth
Circuit has explained the appropriate considerations
when determining whether a private party is acting
as an agent of the government in conducting a search
such that the Fourth Amendment is implicated:

82a
[A] private party’s search is attributable to the
government only “if the private party acted as
an instrument or agent of the Government.”
Skinner v. Ry. Labor Executives’ Ass’n, 489 U.S.
602, 614, 109 S. Ct. 1402, 103 L. Ed.2d 639
(1989); see, e.g., United States v. Clutter, 914
F.2d 775, 778 (6th Cir. 1990). That “necessarily
turns on the degree of the Government’s participation in the private party’s activities.” Skinner, 489 U.S. at 614, 109 S. Ct. 1402. In the context of a search, the defendant must demonstrate two facts: (1) Law enforcement “instigated, encouraged or participated in the
search” and (2) the individual “engaged in the
search with the intent of assisting the police in
their investigative efforts.” United States v.
Hardin, 539 F.3d 404, 419 (6th Cir. 2008) (quoting United States v. Lambert, 771 F.2d 83, 89
(6th Cir. 1985)).
United States v. Shepherd, 646 F. App’x 385, 388 (6th
Cir. 2016); see also United States v. Bowers, 594 F.3d
522, 525-26 (6th Cir. 2010) (“in determining whether
a private party is acting as an agent of the government
such that the Fourth Amendment applies” the Sixth
Circuit uses a two-factor analysis: “(1) the government’s knowledge or acquiescence to the search, and
(2) the intent of the party performing the search.”)
(quoting Hardin, 539 F.3d at 418) (internal quotations
omitted). “If ‘the intent of the private party conducting
the search is entirely independent of the government’s
intent to collect evidence for use in a criminal prosecution,’ then ‘the private party is not an agent of the
government.’” Bowers, 594 F.3d at 526 (quoting Hardin, 539 F.3d at 418 (internal quotation marks and
emphasis omitted)).

83a
Defendant’s argument that Google’s reporting obligations under 18 U.S.C. § 2258A render Google an
agent of NCMEC is not persuasive. As Defendant
acknowledges, § 2258A does not require Google to
search for child pornography. In fact, the statute specifically states that it does not impose such a requirement: “[n]othing in this section shall be construed to
require an electronic communication service provider
. . . to – (1) monitor any user, subscriber, or customer
of that provider; (2) monitor the content of any communication of any person described in paragraph (1);
or (3) affirmatively seek facts or circumstances described in sections (a) and (b).” 18 U.S.C. § 2258A(f).
Instead, the statute merely requires that when an
ESP discovers apparent child pornography, it comply
with its reporting requirements. Thus, Defendant’s
pointing to the statute does not establish that Google
conducted its search because of any directive or encouragement by the government.
Further, while the Sixth Circuit has not addressed
the specific issue at hand, several other circuit courts
have considered the issue and have consistently held
that the reporting requirement set forth in 18 U.S.C.
§ 2258A, or its predecessor statute, “does not transform an [i]nternet service provider into a government
agent whenever it chooses to scan files sent on its network for child pornography.” Stevenson, 727 F.3d at
829-30; see also Cameron, 699 F.3d at 637-38 (rejecting argument that statutory reporting obligations
demonstrated government control over Yahoo!, stating “the statute did not impose any obligation to
search for child pornography, merely an obligation to
report child pornography of which Yahoo! became
aware”) (emphasis original); Richardson, 607 F.3d at
367 (distinguishing the reporting scheme in Skinner,

84a
noting nothing in the statute requires the electronic
communication services to actively seek evidence of
child pornography nor prescribes the procedures for
doing so). These persuasive authorities support the
conclusion in this case that Google’s obligation to report known facts or circumstances of apparent child
pornography to NCMEC does not transform Google’s
voluntary decision to use its own proprietary hashing
technology to search its products for child pornography into conduct of a government actor where the statute does not impose a duty to conduct a search.
Nor does the Court find merit in Defendant’s argument that Google’s willful participation in NCMEC’s
policy of searching for and finding child pornography
demonstrates Google was acting as a government actor. The question of whether Google served as an
agent of the government in performing its search of
Defendant’s email account for hash value matches
“necessarily turns on the degree of the Government’s
participation in [Google’s] activities.” Shepherd, 646
F. App’x at 388 (quoting Skinner, 489 U.S. at 614).
Here, Defendant has not presented any evidence
that NCMEC or law enforcement “instigated, encouraged or participated in the search” of Defendant’s
Gmail account. Shepherd, 646 F. App’x at 388. Defendant does not contend that NCMEC or law enforcement asked Google to perform the search of his emails
or that either had any role in instigating or participating in the search. Even assuming NCMEC may have
been aware that Google routinely monitors its platforms for illegal usage, and submits reports of any illegal activity found, there is no evidence that NCMEC
or law enforcement compelled or encouraged Google to
routinely monitor its platforms. Nor does Defendant

85a
present evidence to suggest that NCMEC or law enforcement were aware of the existence of Defendant or
the miller694u@gmail.com account prior to Google’s
search in this case. Cameron, 699 F.3d at 638 (finding
no evidence that the government instigated the
search, participated in the search, or coerced the ESP
to conduct the search at issue).
In fact, the Affidavit of Cathy A. McGoff, Google’s
Senior Manager of Law Enforcement and Information
Security, provides that Google has no records to suggest, prior to submitting the CyberTipline report, that
Google was aware of any law enforcement investigation pertaining to the user associated with the report.
(R. 33-1, at 2 ¶ 12). Thus, evidence in the record does
not establish that NCMEC or law enforcement “instigated, encouraged or participated” in Google’s search.
Nor is there evidence that Google “engaged in the
search with the intent of assisting the [government]
in their investigative efforts.” Shepherd, 646 F. App’x
at 388. Other than referencing the statute requiring
Google to report (but not search for) discoveries of
child pornography to NCMEC, the only other evidence
Defendant points to as suggesting a relationship between Google, NCMEC and/or law enforcement are
website citations to a number of articles on Google’s
website and blog. (R. 27, at 6 n.3). In these articles,
Google expresses its commitment to protecting children online, discusses its goal of finding, removing
and reporting child pornography on its products, and
discusses its involvement/collaboration with other
“tech industry companies” and NCMEC to combat
child pornography by participating in various coalitions and programs. (Id.). While Defendant argues
this evidence demonstrates Google is collaborating

86a
with NCMEC and has “made itself a willful participant in NCMEC’s policy of searching out and finding
child pornography,” these articles only establish that
Google and NCMEC have a shared goal of eradicating
the online sharing of child pornography. “Sharing a
goal with the Government is insufficient to transform
[an ESP] from a private actor into a Government
agent.” United States v. Stevenson, No. 3:12-cr-5, 2012
WL 12895560, at *3 (S.D. Iowa June 20, 2012), affirmed, 727 F.3d 825 (8th Cir. 2013).
Here, as in Stevenson, Defendant has offered no evidence that the Government, through NCMEC or law
enforcement, participated in or encouraged Google’s
search of Defendant’s email account. In fact, there is
no evidence that NCMEC or law enforcement were
even aware of the search of Defendant’s emails prior
to their receipt of the CyberTipline report. Nor is there
evidence Google performed the search for the purpose
of assisting the Government in its investigative efforts. Instead, the Government provided the Affidavit
of Ms. McGoff that explains Google’s reasons for its
decision to monitor its platform for child pornography:
3. Google has a strong business interest in enforcing our terms of service and ensuring that
our products are free of illegal content, and in
particular, child sexual abuse material. We independently and voluntarily take steps to monitor and safeguard our platform. If our product
is associated with being a haven for abusive
content and conduct, users will stop using our
services. Ridding our products and services of
child abuse images is critically important to
protecting our users, our product, our brand,
and our business interests.

87a
4. Based on these private, non-government interests, since 2008, Google has been using its
own proprietary hashing technology to tag confirmed child sexual abuse images. Each offending image, after it is viewed by at least one
Google employee, is given a digital fingerprint
(“hash”) that our computers can automatically
recognize and is added to our repository of
hashes of apparent child pornography as defined in 18 U.S.C. § 2256. Comparing these
hashes to hashes of content uploaded to our services allows us to identify duplicate images of
apparent child pornography to prevent them
from continuing to circulate on our products.
(R. 33-1, at 1 ¶¶ 3-4). This evidence demonstrates
Google’s actions in this case were motivated by business interests that are separate from a desire to assist
law enforcement. (Id.). Other courts have found such
evidence sufficient to demonstrate the ESP operated
its file-scanning programs independently of the government, and thus were held not to have acted as
agents of the government in operating their scanning
programs. Stevenson, 727 F.3d at 830-31; Cameron,
699 F.3d at 638 (stating that the fact child pornography is a government interest does not mean that an
ESP “cannot voluntarily choose to have the same interest”).
Thus, the evidence before the Court in the present
case demonstrates that Google was not acting as an
agent of NCMEC or law enforcement, but as a private
entity pursuing its own business interests. Therefore,
Google’s use of its hashing technology to search Defendant’s email account did not implicate the Fourth
Amendment.

88a
B. Detective Schihl’s actions did not exceed
Google’s private search
Defendant also argues that even if Google’s search
and seizure was not government action, Detective
Schihl exceeded Google’s private search by opening
and viewing the email attachments and thereby violated his Fourth Amendment rights. This raises questions about the private search doctrine and the application of the doctrine to the circumstances here.
The private search doctrine permits a government
agent to verify the illegality of evidence discovered
during a private search provided the agent stays
within the scope of the private search. United States
v. Lichtenberger, 786 F.3d 478, 481-83 (6th Cir. 2015)
(citing Jacobsen, 466 U.S. at 119-20). A government
agent’s invasion of a defendant’s privacy “must be
tested by the degree to which [the agent] exceeded the
scope of the private search.” Jacobsen, 466 U.S. at 115
(citing Walter, 447 U.S. 649); Lichtenberger, 786 F.3d
at 482. The Supreme Court has explained that “[o]nce
frustration of the original expectation of privacy occurs, the Fourth Amendment does not prohibit governmental use of the now-nonprivate information.”
Jacobsen, 466 U.S. at 117.
The private search doctrine originates from the Supreme Court’s decision in Jacobsen, 466 U.S. at 109.
In Jacobsen, Federal Express (“FedEx”) employees
discovered a damaged package and proceeded to examine its contents, which was consistent with company policy involving insurance claims. Jacobsen, 466
U.S. at 111. The container itself was made of cardboard packaging, but inside of it were crumpled newspapers concealing a 10-inch tube made of silver duct
tape. Id. The employees proceeded to cut open the

89a
tube, and discovered four zip-lock bags filled with an
unidentified white powder. Id. FedEx notified the
Drug Enforcement Agency (“DEA”) of their discovery,
and placed the tube and its contents back in the cardboard container. Id. Upon arrival, a DEA agent discovered the partially opened container, and observed
a slit in the duct tape tube. He then removed the ziplock bags, took a sample from each, and field-tested it.
The test positively identified the substance as cocaine.
Id. at 112.
The Supreme Court analyzed whether the DEA
agent’s after-occurring warrantless search had exceeded the scope of the FedEx employees’ initial private search of the package. The Court found that the
agent’s removal of the cocaine from the package remained within the scope of the private search because
“there was a virtual certainty that nothing else of significance was in the package and that a manual inspection of the tube and its contents would not tell him
anything more than he already had been told.” Id. at
119. As for the chemical test, the Court held that the
field test “could disclose only one fact previously unknown to the agent–whether or not a suspicious white
powder was cocaine.” Id. at 122. The Court concluded
that no search occurred because the defendant did not
have a legitimate expectation of privacy in whether
the powder was contraband and the test could not disclose any other arguable private fact. Id. at 123-24.
Here, Defendant argues Detective Schihl exceeded
Google’s private search when he opened and viewed
the email attachments because Google had not conducted a manual review of the two attached images
before submitting them to NCMEC. (R. 33-1, at 2 ¶
11). Instead, Google reported the attachments to
NCMEC because its hashing technology indicated

90a
they were images that matched hash values of images
its employees had previously viewed and found to be
apparent child pornography. (R. 33-1, at 2 ¶¶ 4, 7, 1011). NCMEC, without opening the attachments or otherwise viewing the images, forwarded the CyberTipline report to law enforcement. 4 (R. 33-6, at 4 ¶15).
It is undisputed that Detective Schihl was the first
person to manually open and view the attachments to
Defendant’s email. (R. 33-3, at 2; R. 33-6, at 4 ¶ 15).
Thus, Defendant argues that because Google did not
manually open and view the attachments, Detective
Schihl opened and viewed unopened virtual containers, i.e., the attachments, thereby exceeding the scope
of Google’s search.
The Sixth Circuit has explained that “[u]nder the
private search doctrine, the critical measures of
whether a governmental search exceeds the scope of
the private search that preceded it are how much information the government stands to gain when it reexamines the evidence and, relatedly, how certain it
is regarding what it will find.” Lichtenberger, 786 F.3d
at 485-86 (citing Jacobsen, 466 U.S. at 119-20). Thus,
to determine whether the Fourth Amendment is implicated by Detective Schihl’s opening and viewing of
the attachments sent via the CyberTipline report, the
Defendant finds of import that the CyberTipline report noted
that NCMEC had “no information concerning the content of the
uploaded files other than information provided in the report by
[Google],” and that NCMEC classified the files as “Child Pornography (Unconfirmed-Files Not Reviewed by NCMEC). (R. 27, at
10) (quoting R. 33-2, at 8). However, the fact that NCMEC did
not review the image files reported by Google does not affect the
Court’s determination of whether Officer Schihl’s actions fell
within the scope of Google’s private search.
4

91a
Court must determine whether Detective Schihl was
virtually certain that his “inspection of the [attachments] . . . would not tell [him] anything more than he
already had been told [by Google via the CyberTipline
report].” Lichtenberger, 786 F.3d at 488 (citing Jacobsen, 466 U.S. at 119).
Defendant looks to the Tenth Circuit’s Ackerman
decision to support his argument that Detective
Schihl’s conduct was unconstitutional. Ackerman, 831
F.3d at 1292. Defendant contends the facts here are
analogous to those the Ackerman court found exceeded the ESP’s private search. (R. 27, at 8). In
Ackerman, the defendant sent an email containing
child pornography. Id. at 1294. But before the email
reached its intended recipient, AOL’s automated filter
identified the email as containing one image that
matched the hash value of an image an AOL employee
had previously viewed and deemed to be child pornography. Id. AOL automatically stopped the email’s delivery and without manually viewing the email or its
attachments, it reported the email to NCMEC and
provided the email and its four attachments (not just
the one attachment containing the image AOL’s filter
found matched the hash value of a known image of
child pornography). Id.
A NCMEC analyst opened the email, viewed each
of the four attached images and confirmed all four images appeared to be child pornography. Id. In reaching
its decision that NCMEC, a governmental entity or
agent, had exceeded AOL’s private search, the Ackerman court found of import that NCMEC opened and
viewed information beyond the one image that was
the target of AOL’s hash value match. Id. at 1306. Notably, the Ackerman court asked, but left unresolved
the following questions:

92a
What if NCMEC hadn’t opened Mr. Ackerman’s
email but had somehow directly accessed (only)
the (one) attached image with the matching
hash value? Could the government have argued that, in that case, NCMEC’s actions didn’t
risk exposing any private information beyond
what AOL had already reported to it? Or might
even that have risked exposing new and protected information, maybe because the hash
value match could have proven mistaken (unlikely if not impossible) or because the AOL employee who identified the original image as
child pornography was mistaken in his assessment (unlikely if maybe more possible)?
Id. at 1306 (citing Salgado, Fourth Amendment
Search and the Power of the Hash, 119 Harv. L. Rev.
F. 38, 38-40 (2005)). The court left these questions unresolved because it found the undisputed facts indicated that NCMEC exceeded AOL’s private search
when it opened the email as well as all four images,
rather than solely viewing the one attachment that
was the target of AOL’s private search. The Court
found that NCMEC’s conduct of opening the email and
viewing the three attachments that had not been identified by AOL as having a hash value match “was
enough to risk exposing private, noncontraband information that AOL had not previously examined.” Ackerman, 831 F.3d 1306-07.
The facts of this case are distinguishable from
Ackerman. Most significantly, there is no evidence or
allegation that Google sent anything to NCMEC other
than the files of the two images having a hash value
match to two images Google’s employees had previously identified as being apparent child pornography.

93a
(R. 33-1, at 2 ¶¶ 10, 11; R. 33-2, at 4-5). Thus, the reasoning of the Ackerman court in finding the search exceeded the scope of AOL’s private search is not applicable. Instead, the issue is whether Detective Schihl’s
opening and viewing of the two attachments that
Google’s private search detected as matching the hash
values of images previously identified as apparent
child pornography risked exposing any private information beyond what Google had reported.
Defendant contends the answer to this inquiry is
yes, and argues the circumstances at hand are similar
to those in Walter v. United States, 447 U.S. 649
(1980). In Walter, a private mail carrier mistakenly
delivered 12 packages containing 871 boxes of 8-millimeter film to the wrong address. Id. at 651. Employees of the company that received the packages opened
them, finding the boxes of film. The boxes contained
drawings and descriptions that alluded to the obscene
content of the films. Id. at 652. One employee attempted to view portions of at least one film by holding it up to the light, but was unsuccessful. Id. Soon
after, the employees contacted the FBI, and an agent
picked up the packages. Id. The FBI agents–without
obtaining a warrant–proceeded to screen the films
through a projector. Id.
The Supreme Court did not issue a majority opinion in Walter. 5 Justice Stevens, joined by Justice Stewart, announced the judgment of the Court, and found
While a majority opinion did not issue, five Justices agreed that
the warrantless projection of the films constituted a search that
infringed the defendant’s Fourth Amendment interests. Justices
Stevens and Stewart found that the officers had violated the
Fourth Amendment because they exceeded the scope of the private search. Walter, 447 U.S. at 653-60. However, Justice White,
with whom Justice Brennan joined, wrote separately stating that

5

94a
that “the Government may not exceed the scope of the
private search unless it has the right to make an independent search.” Id. at 657. Justice Stevens found
that despite the descriptive nature of the labels on the
films’ packaging, the private party had not actually
viewed the films and “prior to the [g]overnment
screening one could only draw inferences about what
was on the films.” Id. at 656-57. He thus concluded
that the viewing of the films was a “significant expansion” of the private search, requiring it be characterized as a separate search. Id. at 657-59.
Here, Defendant Miller contends the hash values
of the images Google located in its search are analogous to the descriptive labels on the films in Walter.
Detective Schihl’s conduct of opening and viewing the
attachments, argues Miller, is akin to the FBI agents’
unconstitutional conduct in Walter of viewing the
films without a warrant. (R. 37, at 4). Defendant
points to a decision of the United States District Court
in the District of Massachusetts as supporting the
even if there had been a private screening of the films, the agents
still needed a warrant because the private search would not have
exposed the content of the films to plain view. Justice Marshall
concurred in the judgment without discussion.
Justices Blackmun, with whom Chief Justice Burger, Justice
Powell and Justice Rehnquist joined, dissented in the judgment,
but agreed the legality of the government’s actions must be
tested by the scope of the private search that preceded them. See
Jacobsen, 466 U.S. at 115-16 (discussing the various opinions in
Walter). Justice Blackmun explained that because the private
search in Walter exposed the labels describing the nature of the
films, there was no remaining expectation of privacy in the contents of the films. He found the subsequent viewing of the films
by the agents did not “change the nature of the search,” and
therefore their view ng did not constitute an additional search
subject to the warrant requirement. Walter, 447 U.S. at 663-64.

95a
comparison of the facts at hand to those in Walter. See
United States v. Keith, 980 F. Supp. 2d 33 (D. Mass.
2013).
In Keith, AOL was alerted to an email on its system containing a file that had a positive hash value
match to an image AOL had previously determined to
be child pornography. Keith, 980 F. Supp. 2d at 37.
Much like Google, AOL maintains a database of hash
values that is “essentially a catalog of files that have
previously been identified as containing child pornography.” Id. at 36. Upon detecting a hash value match
in defendant’s email, AOL forwarded the file (unopened) to NCMEC via the CyberTipline. Id. A
NCMEC analyst opened and inspected the file and determined it contained child pornography. The file was
then forwarded to local law enforcement. Id.
The defendant in Keith moved to suppress this evidence, arguing that by opening and viewing the image
NCMEC exceeded AOL’s private search. 6 Id. The district court agreed, finding that the hash value provided by AOL, much like the labels on the films in
Walter, likely would have furnished the requisite
probable cause for a warrant, but did not justify viewing the contents without a warrant. The court also distinguished Jacobsen, 466 U.S. at 109, stating it is “indisputable that AOL forwarded the suspect file only
because its hash value matched a stored hash value,
Defendant also argued that both AOL and NCMEC were acting
as government agents under the circumstances, and thus their
searches violated his Fourth Amendment rights. Keith, 980 F.
Supp. 2d at 39. The district court dismissed the notion that AOL
had a sufficient enough connection with the government to be
treated as a government actor, but held NCMEC to be an agent
of the government and subject to Fourth Amendment constraints. Id. at 40-42.
6

96a
not because some AOL employee had opened the file
and viewed the contents.” Keith, 980 F. Supp. 2d at
42-43. The court found Walter, not Jacobsen, was the
better analog to the facts of its case. Id. at 43. The
court further stated:
In this regard it is worth noting that matching
the hash value of a file to a stored hash value is
not the virtual equivalent of viewing the contents of the file. What the match says is that
the two files are identical; it does not itself convey any information about the contents of the
file. It does say that the suspect file is identical
to a file that someone, sometime, identified as
containing child pornography, but the provenance of that designation is unknown. So a
match alone indicts a file as contraband but
cannot alone convict it. That is surely why a
CyberTipline analyst opens the file to view it,
because the actual viewing of the contents provides information additional to the information
provided by the hash match. This is unlike
what the Court found the case to be in Jacobsen, where the subsequent DEA search provided no more information than had already
been exposed by the initial FedEx search. Jacobsen is inapposite.
Id. Thus, the court found that by opening the previously unopened email image file, NCMEC exceeded
the scope of the private search. Id.
Defendant Miller’s reliance upon the Keith court’s
rejection of Jacobsen and acceptance of Walters to the
circumstances in that case raises additional questions
for this Court. In applying the Supreme Court’s holding in Jacobsen, the Sixth Circuit has explained that

97a
the relevant inquiry for determining if government action exceeds the scope of a private search is to determine how much information the government stood to
gain when it conducted the search and, relatedly, how
certain it was regarding what it would find. Lichtenberger, 786 F.3d at 485-86 (“We have held a government search permissible–that is, properly limited in
scope–in instances involving physical containers and
spaces on the grounds that the officers in question had
near-certainty regarding what they would find and little chance to see much other than contraband”); 7 Bowers, 594 F.3d at 526 (“based on [defendant’s roommate’s] statements that the album contained child
pornography, the agents were justified in opening the
album to view the potentially incriminating evidence.
. . . In doing so, the agents ‘learn[ed] nothing that had
not previously been learned during the private search’
and ‘infringed no legitimate expectation of privacy.’”)
(quoting Jacobsen, 466 U.S. at 120); United States v.
Richards, 301 F. App’x 480, 483 (6th Cir. 2008) (“the
government’s confirmation of prior knowledge learned
by the private individuals does not constitute exceeding the scope of a private search.”).
Importantly, Defendant Miller does not question
the reliability of hashing technology, and it appears
well established that it is, in fact, reliable. Ackerman

The Lichtenberger court further explained that when the item
searched is an electronic device, the privacy interests at stake
are increased because of the amount of information that is stored
in such devices. Lichtenberger, 786 F.3d at 488. The court found
that given the amount of data that can be stored in a laptop,
“‘there was absolutely no virtual certainty that the search of [defendant’s] laptop would have’ revealed only what Officer Huston
had already been told.” Id.
7

98a
contains language, albeit in dicta, indicating the reliability of hash value matching, stating it is “unlikely
if not impossible” that a hash value match could have
proven a mistake. Ackerman, 831 F.3d at 1306 (citing
Salgado, Fourth Amendment Search and the Power of
the Hash, 119 Harv. L. Rev. F. 38, 45-46 (2005)). In
Ackerman, the court explained hash values as “a short
string of characters generated from a much larger
string of data (say, an electronic image) using an algorithm–and calculated in a way that makes it highly
unlikely another set of data will produce the same
value. Some consider a hash value as a sort of digital
fingerprint.” Id. at 1294.
In addition, other courts, including our own, have
found hash values to be highly reliable–akin to the reliability of DNA. See United States v. Dunning, No.
7:15-04-DCR, 2015 WL 5999818, at *3 (E.D. Ky. Oct.
15, 2015) (noting in a probable cause analysis that “as
Magistrate Judge Atkins observed, hash values ‘boast
a reliability and accuracy akin to DNA: 99.99%.’”) (citing United States v. Wellman, 663 F.3d 224, 226 n.2
(4th Cir. 2011) (also citing the 99.99% probability statistic); see also United States v. Cartier, 543 F.3d 442,
446 (8th Cir. 2008)). The Federal Judicial Center, in a
guide for federal judges, has defined “hash value” as
follows:
hash value: A unique numerical identifier that
can be assigned to a file, a group of files, or a
portion of a file, based on a standard mathematical algorithm applied to the characteristics
of the data set. The most commonly used algorithms, known as MD5 and SHA, will generate
numerical values so distinctive that the chance
that any two data sets will have the same hash
value, no matter how similar they appear, is

99a
less than one in one billion. “Hashing” is used
to guarantee the authenticity of an original
data set and can be used as a digital equivalent
of the Bates stamp used in paper document production.
Barbara J. Rothstein et al., Managing Discovery of
Electronic Information: A Pocket Guide for Judges 24
(Federal Judicial Center 2007).
Even the court in Keith acknowledges the reliability of hashing technology, explaining:
A hash value is an alphanumeric sequence that
is unique to a specific digital file. Any identical
copy of the file will have exactly the same hash
value as the original, but any alteration of the
file, including even a change of one or two pixels, would result in a different hash value. Consequently, once a file has been “hashed,” a suspect copy can be determined to be identical to
the original file if it has the same hash value as
the original, and not to be identical if it has a
different hash value.
Keith, 908 F. Supp. 2d at 36-37.
Given the function of the hash value, the Keith
court’s analogy of the hash value to the labels at issue
in Walter seems misplaced. A label, such as those in
Walter, is not mathematically derived, nor is it intended to have unique identification features that permit one to know with near certainty that a container
containing the exact label will have identical contents
to that of another containing the same label. Further,
the content in labeled containers can be removed or
altered without changing the label. A hash value, on
the other hand, is derived from an algorithm and is a
unique identifier that confirms that two digital files

100a
are the same or different (often discussed as being
similar to a digital fingerprint or DNA). See supra. In
addition, changes to the contents of a digital file will
change the hash value. Thus, a label, such as those at
issue in Walter, is not only created differently than a
hash value, but serves an entirely different purpose.
Instead of merely describing what may be in the
attachments, Google’s search of the attachments using hashing technology revealed they contained images that were duplicates of images a Google employee had previously identified as apparent child pornography. (R. 33-1, at 1 ¶ 4). Accordingly, when Detective Schihl opened and viewed the two images
Google identified as matching the hash values of images it previously identified as apparent child pornography, he was virtually certain to view an exact duplicate of the original image and was merely confirming
what Google had told him–that the attachments contained apparent child pornography. The virtual certainty that Detective Schihl would see only images of
apparent child pornography is what distinguishes this
case from Walter.
Similarly, Lichtenberger is also distinguishable on
this basis. Lichtenberger, 786 F.3d 478 (6th Cir. 2015).
In Lichtenberger, Defendant’s girlfriend, without his
permission, hacked into his laptop and found a number of images of child pornography. The girlfriend
called the police and told them of the child pornography images she found. An officer came to the home
and directed the girlfriend to access the laptop and
open the files. She testified that she showed the officer
a few pictures from the computer files she had found,
but she was not sure if they were the same images she
had seen in her original search. Id. at 481. The Sixth
Circuit held the police officer’s warrantless search of

101a
defendant’s laptop computer exceeded the scope of defendant’s girlfriend’s search because it was not virtually certain that the officer’s review would be limited
to the images the girlfriend had previously viewed. 8
Id. at 485-88. Specifically, the court noted:
Considering the extent of information that can
be stored on a laptop computer–a device with
even greater capacity than the cell phones at issue in Riley [v. California
U.S.
, 134 S.
Ct. 2473 (2014)]–the “virtual certainty” threshold in Jacobsen requires more than was present
here. When Office Huston arrived, he asked
Holmes to show him what she had found. While
the government emphasizes that she showed
Officer Huston only a handful of photographs,
Holmes admitted during testimony that she
could not recall if these were among the same
photographs she had seen earlier because there
were hundreds of photographs in the folders
she had accessed. And Officer Holmes himself
admitted that he may have asked Holmes to
Bowers also supports the Court’s finding. Bowers, 594 F.3d at
524-26. In Bowers, the boyfriend of defendant’s roommate discovered a photo album containing what he believed to be child pornography in the defendant’s bedroom. Bowers, 594 F.3d at 524.
When the summoned authorities arrived at the defendant’s
home, his roommate directed them to the dining room table
where they had placed the album. The agents opened the album
to view the potentially incriminating evidence. Id. at 524-25. The
Sixth Circuit upheld the search of the photo album by agents because the roommate had already described the contents of the
album. Id. at 526. The agents therefore knew the album contained child pornography, “learn[ed] nothing that had not previously been learned during the private search,” and “infringed no
legitimate expectation of privacy.” Id. (quoting Jacobsen, 466
U.S. at 120) (internal quotation marks omitted).
8

102a
open files other than those she had previously
opened. As a result, not only was there no virtual certainty that Officer Huston’s review was
limited to the photographs from Holmes’s earlier search, there was a very real possibility Officer Huston exceeded the scope of Holmes’s
search and that he could have discovered something else on Lichtenberger’s laptop that was
private, legal, and unrelated to the allegations
prompting the search–precisely the sort of discovery the Jacobsen Court sought to avoid in
articulating its beyond-the-scope test.
All the photographs Holmes showed Officer
Huston contained images of child pornography,
but there was no virtual certainty that would
be the case. The same folders–labeled with
numbers, not words–could have contained, for
example, explicit photos of Lichtenberger himself: legal, unrelated to the crime alleged, and
the most private sort of images. Other documents, such as bank statements or personal
communications, could also have been discovered among the photographs. So, too, could internet search histories containing anything
from Lichtenberger’s medical history to his
choice of restaurant. The reality of modern data
storage is that the possibilities are expansive.
Lichtenberger, 786 F.3d at 488-89.
Here, on the other hand, Defendant Miller does not
dispute that only the two images Google’s private
search identified as matching previously tagged images of apparent child pornography were attached to
the CyberTipline report. Thus, there was little to no
possibility that Detective Schihl’s review of the two

103a
image files would reveal other information beyond
what the private search revealed–the two image files
contained images of apparent child pornography.
Further, Defendant’s argument that the “virtual
certainty” language in Jacobsen is not applicable because Detective Schihl did not “re-examine” the attachments but rather opened “an unopened virtual
container” is not persuasive. (R. 37, at 2-6). The evidence establishes that Google used its digital or virtual eye to search the contents of Defendant’s email
account looking for images it had previously viewed
and tagged as apparent child pornography. Once it located two images within Defendant’s email account
having hash values that matched images it had previously viewed and tagged as apparent child pornography, it knew from its electronic viewing or examination of the attachments that they contained apparent
contraband. Accordingly, because hashing technology
identifies files that are exact matches to images containing the same hash value, Google’s private search
of the attachments, using its digital or virtual eye,
frustrated Defendant’s expectation of privacy in those
attachments. Simply put, Google’s private search
“compromised the integrity of the [attachments].” Jacobsen, 466 U.S. at 120 n.17. Therefore, contrary to
Defendant’s argument, the principles articulated in
Jacobsen apply to determine whether Detective
Schihl’s actions exceeded the scope of Google’s private
search.
As discussed above, Detective Schihl’s opening and
viewing of the images Google’s private search identified as having hash values that matched that of
known images of apparent child pornography was virtually certain to reveal only the images Google previously viewed and tagged. As in Jacobsen, there was a

104a
virtual certainty that nothing else of significance except suspected contraband, i.e. apparent child pornography, would be found in the attachments, and a manual inspection of the attachments would reveal nothing more than what Google’s private search revealed–
the attachments contained apparent child pornography. 9 Therefore, Detective Schihl’s opening and viewing of the attachments to confirm Google’s report of apparent child pornography falls within the private
search doctrine, and no Fourth Amendment violation
occurred. See Jacobsen, 466 U.S. at 115; Lichtenberger, 786 F.3d at 485-86; Bowers, 594 F.3d at 52426. 10
As the Government notes, while the possibility exists that
Google erred in its original determination that these images constituted child pornography, that possibility is no greater than
any other circumstance where a private person reports apparent
child pornography. Cf. Bowers, 594 F.3d at 526 (“based on the
[roommate’s] statements that the album contained child pornography, the agents were justified in opening the album to view the
potentially incriminating evidence. . . . In doing so, the agents
‘learn[ed] nothing that had not previously been learned during
the private search’ and ‘infringed no legitimate expectation of
privacy.’”) (quoting Jacobsen, 466 U.S. at 120).
9

10 Defendant also briefly argues in Reply that while the Government suggests Detective Schihl’s opening of the two email attachments was not a physical trespass, his conduct does, in fact,
constitute a search under the traditional trespass test. (R. 37, at
9) (citing Ackerman, 831 F.3d at 1308) (citing United States v.
Jones, 565 U.S. 400 (2012)). Defendant specifically references the
finding in Ackerman that NCMEC’s opening of the email and its
attachments in that case constituted a search under both the reasonable expectation of privacy test discussed by the Supreme
Court in Jacobsen, Walter and Katz v. United States, 389 U.S.
347 (1967) and the traditional trespass test discussed in Jones.
However, Jones and Ackerman are distinguishable from this
case. Jones did not involve the application of the private search
doctrine; and Ackerman involved a finding that the Government

105a
III.Conclusion and Recommendation
Google’s use of its hashing technology to search Defendant’s email account does not implicate the Fourth
Amendment because it was a private search. Further,
Detective Schihl’s actions of opening the email attachments did not exceed the scope of Google’s private
search because it was virtually certain his actions
would reveal nothing more than already reported by
Google–that the images were apparent child pornography.
Accordingly, IT IS RECOMMENDED that Defendant’s Motion to Suppress (R. 27) be DENIED.
Specific objections to this Report and Recommendation must be filed within fourteen (14) days of the
date of service or further appeal is waived. 28 U.S.C.
§ 636(b)(1)(C); Fed. R. Crim. P. 59(b)(2); Thomas v.
Arn, 728 F.2d 813, 815 (6th Cir. 1984), aff’d, 474 U.S.
140 (1985); United States v. Walters, 638 F.2d 947 (6th
Cir. 1981).
Dated this 19th day of May, 2017.

exceeded the scope of AOL’s private search by opening the email
and all four attachments, not just the one attachment with the
hash value match. As discussed above, the Fourth Amendment
only prohibits governmental action; it is inapplicable “to a search
or seizure, even an unreasonable one, effected by a private individual not acting as an agent of the Government or with the participation or knowledge of any governmental official.” Jacobsen,
466 U.S. at 113 (quoting Walter, 447 U.S. at 662) (Blackmun, J.,
dissenting). Given the Court’s finding that the private search
doctrine is applicable to the case at bar and the lack of any appreciable development of a trespass argument by Defendant, this
argument will not be considered further.

106a
Signed By:
Candace J. Smith CJS
United States Magistrate Judge

